<html>
<title> - H.R., THE NUCLEAR WASTE POLICY AMENDMENTS ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       H.R. ___, THE NUCLEAR WASTE POLICY AMENDMENTS ACT OF 2017

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2017

                               __________

                           Serial No. 115-26
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-996 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe8ffe0cfecfafcfbe7eae3ffa1ece0e2a1">[email&#160;protected]</a>                       
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     8
    Prepared statement...........................................     8
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................    10
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................   122

                               Witnesses

Dean Heller, a United States Senator from the State of Nevada....    11
    Prepared statement...........................................    14
Ruben J. Kihuen, a Representative in Congress from the State of 
  Nevada.........................................................    18
    Prepared statement...........................................    20
Dina Titus, a Representative in Congress from the State of Nevada    24
    Prepared statement...........................................    26
Jacky Rosen, a Representative in Congress from the State of 
  Nevada.........................................................    28
    Prepared statement...........................................    30
Joe Wilson, a Representative in Congress from the State of South 
  Carolina.......................................................    32
    Prepared statement...........................................    34
Edward F. Sproat III, Former Director, Office of Civilian 
  Radioactive Waste Management, Department of Energy.............    38
    Prepared statement...........................................    41
    Answers to submitted questions...............................   156
Anthony J. O'Donnell, Chairman, Subcommittee on Nuclear Issues--
  Waste Disposal, National Association of Regulatory Utility 
  Commissioners..................................................    46
    Prepared statement...........................................    48
    Answers to submitted questions...............................   159
Edwin Lyman, Ph.D., Senior Scientist, Global Security Program, 
  Union of Concerned Scientists..................................    56
    Prepared statement...........................................    59
    Answers to submitted questions...............................   162
Steven P. Nesbit, Chairman, Back-end Working Group, United States 
  Nuclear Infrastructure Council.................................    70
    Prepared statement...........................................    72
    Answers to submitted questions...............................   165
Mark McManus, General President, United Association of Union 
  Plumbers, Pipefitters, Welders, and Service Technicians........    88
    Prepared statement...........................................    91

                           Submitted Material

Discussion Draft, H.R. ___, the Nuclear Waste Policy Amendments 
  Acts of 2017,\1\ submitted by Mr. Shimkus
Letter of April 24, 2017, from Judy Treichel, Executive Director, 
  Nevada Nuclear Waste Task Force, et al., to House Members, 
  submitted by Ms. Titus.........................................   123
Letter of April 26, 2017, from Geoff Freeman, President and CEO, 
  American Gaming Association, to Mr. Shimkus and Mr. Tonko, 
  submitted by Ms. Titus.........................................   131
H.R. 456, the Nuclear Waste Informed Consent Act, submitted by 
  Ms. Rosen......................................................   132
Southern Nevada Map of Yucca Transportation Route, submitted by 
  Ms. Rosen......................................................   135
Letter of April 26, 2017, from Matthew McKenzie, Nuclear Program 
  Director and Senior Scientist, and Geoffrey Fettus, Senior 
  Attorney, Nuclear Program, National Resources Defense Council, 
  to Mr. Shimkus and Mr. Tonko, submitted by Mr. Tonko...........   136
Letter of April 21, 2017, from Governor Brian Sandoval, Nevada, 
  to Mr. Shimkus and Mr. Tonko, submitted by Mr. Shimkus.........   141
Letter of April 21, 2016, from Senator Dean Heller to Mr. 
  Shimkus, submitted by Mr. Shimkus..............................   143
Letter of April 24, 2017, from Dan Schinhofen, Chairman, Board of 
  County Commissioners, Nye County, Nevada, to Mr. Walden, et 
  al., submitted by Mr. Shimkus..................................   145
Letter of April 24, 2017, from Steve Curtis, Past President, 
  American Nuclear Society, Nevada Section, to Mr. Shimkus, 
  submitted by Mr. Shimkus.......................................   147
Editorial of November 21, 2016, ``Trump, Congress should open 
  $15B Yucca Mountain,'' Albuquerque Journal, submitted by Mr. 
  Shimkus........................................................   148
Editorial of April 11, 2017, ``Revive Yucca Mountain: Illinois 
  has more nuclear waste than any other state, all of it in 
  temporary storage,'' Chicago Tribune, submitted by Mr. Shimkus.   149
Article of March 21, 2017, ``Trump's budget could help get rid of 
  the nuclear waste along the San Onofre coastline,'' by Rob 
  Nikolewski, Los Angeles Times, submitted by Mr. Shimkus........   152

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF18/
  20170426/105877/BILLS-115pih-DiscussionDraftofHR------
  theNuclearWastePolicyAmendmentsActof2017.pdf.

 
       H.R. ___, THE NUCLEAR WASTE POLICY AMENDMENTS ACT OF 2017

                              ----------                              


                       WEDNESDAY, APRIL 26, 2017

                  House of Representatives,
                       Subcommittee on Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, McKinley, Barton, 
Murphy, Blackburn, Harper, Olson, Johnson, Flores, Hudson, 
Cramer, Walberg, Carter, Walden (ex officio), Tonko, Ruiz, 
Peters, Green, DeGette, McNerney, Dingell, and Matsui.
    Staff present: Grace Appelbe, Legislative Clerk, Energy and 
Environment; Ray Baum, Staff Director; Karen Christian, General 
Counsel; Zack Dareshori, Staff Assistant; Wyatt Ellertson, 
Research Associate, Energy and Environment; Adam Fromm, 
Director of Outreach and Coalitions; Tom Hassenboehler, Chief 
Counsel, Energy and Environment; A.T. Johnston, Senior Policy 
Advisor, Energy; Alex Miller, Video Production Aide and Press 
Assistant; Christopher Sarley, Policy Coordinator, Environment; 
Dan Schneider, Press Secretary; Peter Spencer, Professional 
Staff Member, Energy; Evan Viau, Staff Assistant; Hamlin Wade, 
Special Advisor for External Affairs; Everett Winnick, Director 
of Information Technology; Andrew Zach, Professional Staff 
Member, Environment; Jeff Carroll, Minority Staff Director; 
David Cwiertny, Minority Energy and Environment Fellow; Tiffany 
Guarascio, Minority Deputy Staff Director and Chief Health 
Advisor; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; Jessica Martinez, Minority 
Outreach and Member Services Coordinator; Alexander Ratner, 
Minority Policy Analyst; Matt Schumacher, Minority Deputy Press 
Secretary and Digital Director; and Tuley Wright, Minority 
Energy and Environment Policy Advisor.
    Mr. Shimkus. The Subcommittee on Environment will now come 
to order. Can we have someone close the back door, and Members 
please take your seats. The Chair now recognizes himself for 5 
minutes for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Good morning, and welcome to our hearing to receive 
testimony on the discussion draft titled the Nuclear Waste 
Policy Amendments Act of 2017. For over 50 years, the Federal 
Government has funded activities to fulfill its obligations for 
permanent disposal of nuclear waste. In 2008, after decades of 
scientific research, engineering design, and technical review 
of the Yucca Mountain site, the Department of Energy achieved a 
major milestone when it submitted the Yucca Mountain Repository 
license application to the Nuclear Regulatory Commission for 
review.
    Another milestone was achieved in 2014, when the NRC's 
independent scientific review of the license application found 
that the site is expected to meet all regulatory requirements 
up to 1 million years. This meant that the NRC's technical 
staff found that the system, DOE, and its National Laboratory's 
design could protect the public by preventing radiation at the 
site from surpassing natural background levels for 10,000 
years, and from surpassing EPA standards for 1 million years.
    The NRC analysis determined the expected annual release is 
about equal to a cross-country airplane flight, and less 
radiation than we all receive from working here in the Capitol. 
Despite the positive safety assessments, the process toward the 
next legal milestone, adjudication and final NRC license 
decision had already stopped because the previous 
administration terminated, and I would say illegally, DOE's 
Yucca Mountain program.
    In response to the situation, the committee heard from 
scores of expert witnesses over the past 6 years about 
challenges and opportunities to advance our Nation's nuclear 
waste management policy. This discussion draft reflects what we 
learned through those hearings, oversight activities, and 
related work. However, it is just that, a discussion draft, and 
today we start the process of taking input from all 
stakeholders on this draft.
    The discussion draft amends certain provisions of the 
Nuclear Waste Policy Act to provide for a favorable path 
forward to dispose of spent nuclear fuel for our legacy, to end 
our legacy defense material. Key provisions in the draft will, 
number one, address issues identified by the NRC to 
successfully adjudicate the pending license application for the 
Yucca Mountain project and permit certain supporting 
infrastructure support activities to move forward.
    Two, remove the existing requirement that Nevada waive its 
right to disapprove of the process in order to enter an 
agreement with the Department of Energy to mitigate potential 
impacts associated with the repository.
    Three, provide the Department of Energy authority to move 
forward with a temporary fuel storage facility, including the 
ability to enter into contract with a private entity for that 
purpose, while assuring that these interim efforts do not 
compete with resources to complete the permanent repository 
licensing.
    Four, strengthen leadership within the Department of Energy 
to manage the multigenerational infrastructure project, and 
clarify that the Office of Civilian Radioactive Waste 
Management is the sole, statutorily designated office to manage 
activities under the law.
    Five, reform a broken financing system to protect 
ratepayers and ensure that previous investments for nuclear 
waste disposal activities will be available when needed.
    And six, protect our Nation's priority national security 
programs by ensuring previous appropriations to dispose of 
defense nuclear waste are taken into account.
    A brief note on Nevada's concerns. On Friday, Governor 
Sandoval reasserted the State of Nevada's long-established 
opposition to Yucca in a letter to the committee. I recognize 
the State has filed over 200 contentions on the Yucca Mountain 
license application objecting to certain provisions of DOE's 
proposals. I believe it is important and right that Nevada make 
its case in public before the appropriate body, and have its 
legal and technical challenges adjudicated impartially. To do 
this, the discussion draft would enable the resumption of the 
licensing process and provide the opportunity for the State's 
technical objections to be adjudicated in the NRC process. This 
would benefit all parties involved, and could, in fact, 
strengthen the ultimate license for repository. Also, in 
keeping with our practice of listening to Nevada stakeholders, 
today on a Members panel, we welcome the testimony of two new 
Nevada representatives, Mr. Kihuen and Ms. Rosen.
    The committee also welcomes back Representative Titus, who 
we heard from last July on this important issue. And I look 
forward to hearing from my former colleague in the House, Dean 
Heller, who is now the State's senior Senator. We will also 
hear from Congressman Joe Wilson of South Carolina, who will 
speak to a discussion draft provision that reflects language 
from his bill, H.R. 433, the Sensible Nuclear Waste Disposition 
Act.
    Let me also welcome all the witnesses on the second panel. 
In particular, Ward Sproat, who will outline critical steps for 
the program. Mr. Sproat served as Director of the Office of 
Civilian Radioactive Waste Management during a critical time, 
and successfully led the Department's efforts to complete and 
submit the repository license application.
    Maryland Public Service Commissioner Tony O'Donnell is here 
on behalf of the National Association of Regulatory Utility 
Commissioners to represent the American ratepayers. As we will 
hear, ratepayers have given DOE over $40 billion to pay for 
this multigenerational capital infrastructure project, and yet, 
the Federal Government has not fulfilled its legal obligations. 
Until Congress addresses perpetual problems with the Nuclear 
Waste Fund, project management challenges will remain.
    Our goal here is to identify the right reforms to ensure we 
can fulfill the Government's obligation to dispose of our 
Nation's nuclear material. We have the perspectives today to 
help us do just that.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Good morning and welcome to our hearing to receive 
testimony on the discussion draft titled, ``The Nuclear Waste 
Policy Amendments Act of 2017.''
    For over 50 years, the Federal Government has funded 
activities to fulfill its obligations for permanent disposal of 
nuclear waste. In 2008, after decades of scientific research, 
engineering, design, and technical review of the Yucca Mountain 
site, the Department of Energy achieved a major milestone when 
it submitted the Yucca Mountain repository License Application 
to the Nuclear Regulatory Commission for review.
    Another milestone was achieved in 2014, when the NRC's 
independent scientific review of the license application found 
that the site is expected to meet all regulatory requirements 
up to a million years. This meant that NRC's technical staff 
found that the system DOE and its national laboratories 
designed could protect the public by preventing radiation at 
the site from surpassing natural background levels for 10,000 
years--and from surpassing EPA's standards for a million years. 
The NRC analysis determined the expected annual release is 
about equal to a cross-country airplane flight and less 
radiation than we all receive from working here in the Capitol.
    Despite the positive safety assessments, the process toward 
the next legal milestone--adjudication and final NRC license 
decisions--had already stopped, because the previous 
administration terminated DOE's Yucca Mountain Program.
    In response to this situation, this committee heard from 
scores of expert witnesses over the past 6 years about 
challenges and opportunities to advance our Nation's nuclear 
waste management policy. This discussion draft reflects what we 
learned through those hearings, oversight activities and 
related work. However, it is just that: a discussion draft. And 
today we start of process of taking input from all stakeholders 
on this draft.
    The discussion draft amends certain provisions of the 
Nuclear Waste Policy Act to provide for a favorable path 
forward to dispose of spent nuclear fuel and our legacy defense 
material. Key provisions in the draft will:
    1. Address issues identified by the NRC to successfully 
adjudicate the pending license application for the Yucca 
Mountain Project and permit certain supporting infrastructure 
support activities to move forward;
    2. Remove the existing requirement that Nevada waive its 
right to disapprove of the process in order to enter into an 
agreement with the Department of Energy to mitigate potential 
impacts associated with the repository;
    3. Provide the Department of Energy authority to move 
forward with a temporary fuel storage facility, including the 
ability to enter into a contract with a private entity for that 
purpose, while assuring that these interim efforts do not 
compete with resources to complete the permanent repository 
licensing;
    4. Strengthen leadership within Department of Energy to 
manage a multigenerational infrastructure project and clarify 
that the Office of Civilian Radioactive Waste Management is the 
sole statutorily designated office to manage activities under 
the law;
    5. Reform a broken financing system to protect ratepayers 
and assure that previous investments for nuclear waste disposal 
activities will be available when needed; and,
    6. Protect our Nation's priority national security programs 
by assuring previous appropriations to dispose of defense 
nuclear waste are taken into account.
    A brief note on Nevada's concerns. On Friday, Governor 
Sandoval reasserted the State of Nevada's long established 
opposition to Yucca in a letter to the committee. I recognize 
the State has filed over 200 contentions on the Yucca Mountain 
license application objecting to certain provisions of DOE's 
proposal. I believe it is important and right that Nevada make 
its case in public, before the appropriate body, and have its 
legal and technical challenges adjudicated impartially.
    To do this, the discussion draft would enable the 
resumption of the licensing process and provide the opportunity 
for the State's technical objections to be adjudicated in the 
NRC process. This would benefit all parties involved and could 
in fact strengthen the ultimate license for a repository.
    Also, in keeping with our practice of listening to Nevada 
stakeholders, today on a Members panel we welcome the testimony 
of two new Nevada Representatives, Mr. Kihuen and Ms. Rosen. 
The committee also welcomes back Representative Titus, who we 
heard from last July on this important issue, and looks forward 
to hearing from my former colleague in the House, Dean Heller, 
who is now the State's senior Senator. We will also hear from 
Congressman Wilson of South Carolina, who will speak to a 
discussion draft provision that reflects language from his bill 
H.R. 433, the Sensible Nuclear Waste Disposition Act.
    Let me also welcome all the witnesses on the second panel, 
in particular Ward Sproat, who will outline critical steps for 
the program. Mr. Sproat served as the Director of the Office of 
Civilian Radioactive Waste Management during a critical time 
and successfully led the Department's efforts to complete and 
submit the repository license application.
    Maryland Public Service Commissioner Tony O'Donnell is here 
on behalf of the National Association of Regulatory Utility 
Commissioners to represent the American ratepayers.
    As we will hear, ratepayers have given DOE over $40 billion 
to pay for this multigenerational capital infrastructure 
project and yet the Federal Government has not fulfilled its 
legal obligations. Until Congress addresses perpetual problems 
with the Nuclear Waste Fund, project management challenges will 
remain.
    Our goal here is to identify the right reforms to ensure we 
can fulfill the Government's obligation to dispose of our 
Nation's nuclear material. We have the perspectives today to 
help us do just that.

    Mr. Shimkus. My time has expired. The Chair now recognizes 
the ranking member of the subcommittee, Mr. Tonko, for 5 
minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. And I know this is an 
issue about which you are passionate, so I welcome the 
opportunity to hear more views on this discussion draft. I also 
want to welcome our colleagues, Representatives Titus, 
certainly Kihuen, and Rosen, and Wilson for joining us this 
morning. Welcome also and thank you to Senator Heller for 
joining us from the Senate side.
    Mr. Chair, I appreciate you accommodating Mr. Kihuen's 
request to hold a member panel. Last year, we heard from some 
of our Nevadan colleagues, including Ms. Titus, at nuclear 
waste hearing. Since then, we have welcomed two new members 
from the Nevadan delegation to the House, and it is important 
for us to hear their views on this very important issue.
    Similarly, since our last hearing, we have had a change in 
administration. President Trump's initial budget proposal 
includes a $120 million effort to restart licensing activities 
for the Yucca Mountain Nuclear Waste Repository, and to 
initiate a robust interim storage program. Clearly, this is a 
change in policy from the previous administration which had not 
requested funding for the Yucca license application for a 
number of years and began to develop a consent-based approach. 
It is, indeed, important to get this administration's feedback 
on this bill, as well as a better sense of its policy on the 
future of America's nuclear waste.
    I also want to highlight a concerning trend. This is the 
third legislative hearing this year in this subcommittee where 
we have not had a witness or feedback from the administration. 
We need to hear from them and should not rush forward without 
having a better understanding of their position. Today, there 
are over 72,000 metric tons of waste, which is as a number 
expected to grow to 139,000 metric tons by 2067. More and more 
reactors are shutting down. Many of them are going through 
decommissioning early.
    There is no question our Nation has serious nuclear waste 
management challenges. As we will hear, some of these are 
political, but there are also technical and transportation 
issues.
    I understand these are very difficult challenges, but if we 
continue to ignore the problem, taxpayers from every State will 
pay the price. In December of 2015, CBO testified before this 
subcommittee on the Federal Government's liabilities under the 
Nuclear Waste Policy Act. Courts have determined that DOE has 
breached contractual obligations under this statute. DOE was 
scheduled to start removing waste by 1998. After the Government 
missed this deadline, utilities began suing for damages, which 
have been paid from the Treasury's Judgment Fund. At the time 
of our previous hearing, those payments totaled $5.3 billion, 
which has only continued to grow. DOE estimated that if it 
could begin to accept waste within the next 10 years, 
liabilities would ultimately total $29 billion.
    So, I understand the urgency of this issue, and I 
understand the Chair's genuine desire to help communities 
dealing with waste and protect taxpayers from any further need 
to make payments from the Treasury, but I am not sure that the 
continued strong linkage between Yucca and an interim solution 
is the best option to limit further taxpayer liability.
    The draft before us takes a number of steps to solve our 
Nation's nuclear waste problems, some of which, I think, are 
positive, but many provisions will not bring us to a solution 
any quicker. The bill authorizes interim storage that can be 
operated by DOE or a private contractor, but it prohibits any 
interim projects from moving forward until the Nuclear 
Regulatory Commission makes a final decision on a construction 
authorization for a permanent repository. We know there are 
companies interested in pursuing interim storage, but this link 
may create unnecessary uncertainty to their financing and 
business model. It would be possible for us to consider the 
merits of interim storage in a long-term repository on separate 
but parallel tracks.
    Also, I know many Members, many Members, care about States' 
rights, and those from the West are especially sensitive about 
water rights. This bill would declare the construction of a 
nuclear waste repository a beneficial use of water. I find this 
troubling. It is not an issue we need to consider at this time.
    There are many members on this committee, on both sides of 
the aisle, that would like to see a fair outcome that 
acknowledges these challenges, finds workable solutions, and 
protects the American taxpayers. But ultimately, if you have 
confidence in the new administration--and, frankly, I do not, 
but there are many on the majority side that do--you should 
trust them to move the ball forward on a long-term, nuclear 
waste repository.
    Regardless of the text before us today, a permanent 
solution will take many years and be mired by litigation. In 
the meantime, we may want to examine the steps Congress can 
take to start resolving the issue now. I am not wholly 
convinced that this draft, as currently written, would 
accomplish that. With that, I thank you, Mr. Chair, and I look 
forward to this morning's discussion, again, welcoming our 
colleagues. And with that I yield back.
    [The prepared statement of Mr. Tonko follows:]

                 Prepared statement of Hon. Paul Tonko

    Thank you, Mr. Chairman. I know this is an issue you are 
passionate about, so I welcome the opportunity to hear more 
views on this discussion draft.
    I also want to welcome our colleagues Reps. Titus, Kihuen, 
Rosen, and Wilson for joining us this morning. And Senator 
Heller for making the trip from the Senate side.
    Mr. Chairman, I appreciate you accommodating Mr. Kihuen's 
request to hold a Member Panel. Last year we heard from some of 
our Nevadan colleagues, including Ms. Titus, at a nuclear waste 
hearing.
    Since then, we have welcomed two new Members from the 
Nevadan delegation to the House. It is important for us to hear 
their views.
    Similarly, since our last hearing, we have had a change in 
administration.
    President Trump's initial budget proposal includes a $120 
million effort to ``restart licensing activities for the Yucca 
Mountain nuclear waste repository and to initiate a robust 
interim storage program.''
    Clearly, this is a change in policy from the previous 
administration, which had not requested funding for the Yucca 
license application for a number of years and began to develop 
a ``consent-based'' approach.
    It is indeed important to get this administration's 
feedback on this bill as well as a better sense of their policy 
on the future of America's nuclear waste.
    I also want to highlight a concerning trend.
    This is the third legislative hearing this year in this 
subcommittee where we have not had a witness or feedback from 
the administration. We need to hear from them and should not 
rush forward without having a better understanding of its 
position.
    Today, there is over 72,000 metric tons of waste, which is 
expected to grow as a number to 139,000 metric tons by 2067. 
More and more reactors are shutting down--many of them are 
going through decommissioning early.
    There is no question our Nation has serious nuclear waste 
challenges. As we will hear, some of these are political, but 
there are also technical and transportation issues.
    I understand these are very difficult challenges, but if we 
continue to ignore the problem, taxpayers--from every State--
will pay the price.
    In December 2015, CBO testified before this subcommittee on 
the Federal Government's liabilities under the Nuclear Waste 
Policy Act.
    Courts have determined that DOE has breached contractual 
obligations under this statute. DOE was scheduled to start 
removing waste by 1998.
    After the Government missed this deadline, utilities began 
suing for damages, which have been paid from the Treasury's 
Judgment Fund.
    At the time of our previous hearing, those payments totaled 
$5.3 billion, which has only continued to grow.
    DOE estimated that if it could begin to accept waste within 
the next 10 years, liabilities would ultimately total $29 
billion.
    So I understand the urgency of the issue. And I understand 
the Chair's genuine desire to help communities dealing with 
waste and protect taxpayers from any further need to make 
payments from the Treasury.
    But I am not sure that the continued strong linkage between 
Yucca and an interim solution is the best option to limit 
further taxpayer liability.
    The draft before us takes a number of steps to solve our 
Nation's nuclear waste problems. Some of which I think are 
positive, but many provisions will not bring us to a solution 
any quicker.
    The bill authorizes interim storage that can be operated by 
DOE or a private contractor, but it prohibits any interim 
projects from moving forward until the Nuclear Regulatory 
Commission makes a final decision on a construction 
authorization for a permanent repository.
    We know there are companies interested in pursuing interim 
storage, but this link may create unnecessary uncertainty to 
their financing and business model.
    It would be possible for us to consider the merits of 
interim storage and a long-term repository on separate but 
parallel tracks.
    Also, I know many Members care about States' rights. And 
those from the West are especially sensitive about water 
rights.
    This bill would declare the construction of a nuclear waste 
repository a beneficial use of water. I find this troubling. It 
is not an issue we need to consider at this time.
    There are many Members on this committee, on both sides of 
the aisle, that would like to see a fair outcome that 
acknowledges these challenges, finds workable solutions, and 
protects the American taxpayers.
    But ultimately, if you have confidence in the new 
administration--and, frankly, I do not, but there are many on 
the majority's side that do--you should trust them to move the 
ball forward on a long-term nuclear waste repository.
    Regardless of the text before us today, a permanent 
solution will take many years and be mired by litigation.
    In the meantime, we may want to examine the steps Congress 
can take to start resolving the issue now. I am not wholly 
convinced that this draft, as currently written, would 
accomplish that.
    Thank you, Mr. Chairman. I look forward to this morning's 
discussion. With that, I yield back.

    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the chairman of the full committee, Mr. Walden, 
for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the gentleman not only for holding this 
hearing, but also for your diligent work on this matter for 
many, many years. I am glad that you are moving forward on 
this. It is an important task, and I want to welcome our 
colleagues from Nevada and South Carolina for being here as 
well. We look forward to hearing your testimony. I know it is 
important to have a member panel, and so we welcome what you 
have to say.
    Just this year, an Oregon-based nuclear technology company, 
NuScale, submitted a new design for a small modular reactor to 
the Nuclear Regulatory Commission for review and approval. It 
is a first-of-a-kind design that could operate more efficiently 
than existing plans. It would provide future optionality in 
design and construction for utilities to meet energy demand. 
However, while we look forward to advanced nuclear technology 
development, it is long overdue that we solve this waste issue. 
Again, when it comes to the Nuclear Waste Policy Act, as you 
know, the Government established a fee tied to the generation 
of nuclear energy in order to finance the cost of 
multigenerational disposal programs. Along with 33 other 
States, Oregon ratepayers fulfilled their financial obligations 
under the law, paid the Department of Energy $160 million to 
dispose of that commercial spent fuel.
    The Trojan Nuclear Power Plant, located in northwest 
Oregon, stopped producing electricity in 1993 with the 
expectation that DOE would then begin to remove the spent fuel 
in 1998, as required by Federal law. However, that has never 
happened. And since the plant's decommissioning activities were 
completed in 2007, only spent nuclear fuel remains stranded at 
that site. That hampers any redevelopment efforts surrounding 
that site. That story is repeated across the Nation in States 
and communities awaiting DOE to fulfill its obligations and 
dispose of spent fuel.
    Mr. Chairman, I want to commend you and Secretary Perry for 
taking the time at different times to go out to Yucca and 
review that. I commend you for looking at interim storage as 
well, and I look forward to hearing from our witnesses.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Nuclear energy is and must remain a vital component of our 
Nation's diverse, reliable, and clean electricity portfolio. 
Numerous companies are seeking to develop new nuclear 
technologies to power our Nation's homes and factories for 
another generation.
    Just this year, an Oregon-based nuclear technology company, 
NuScale, submitted a new design for a small modular reactor to 
the Nuclear Regulatory Commission for review and approval. This 
first-of-a-kind design could operate more efficiently than 
existing plants and would provide future optionality in design 
and construction for utilities to meet energy demand. However, 
while we look forward to advanced nuclear technology 
development, it is long overdue to solve our Nation's nuclear 
waste disposal challenge.
    Thirty-five years ago, Congress enacted the Nuclear Waste 
Policy Act into law. This law was the culmination of decades of 
experience by the Federal Government to develop a policy to 
dispose of high-level radioactive waste and commercial spent 
nuclear fuel permanently. Some of the material was created 
during the Manhattan Project and through the Cold War at the 
Hanford site, a vital national security facility located on the 
Columbia River about 40 miles north of my district. Today, 
after years of cleanup activity and with more work remaining, 
this nuclear material still sits on a vibrant waterway waiting 
to be transported to the Yucca Mountain repository in the 
Nevada desert.
    The Nuclear Waste Policy Act also established a fee tied to 
the generation of nuclear energy in order to finance the costs 
of a multigenerational disposal program. Along with 33 other 
States, Oregon ratepayers fulfilled their financial obligations 
under the law and paid the Department of Energy over $160 
million to dispose of commercial spent nuclear fuel.
    The Trojan nuclear power plant located in northwest Oregon 
stopped producing electricity in 1993, with the expectation 
that DOE would begin to remove the spent fuel in 1998, as was 
required by law. However, that never happened and since the 
plant's decommissioning activities were completed in 2007, only 
spent nuclear fuel remains stranded at the site, hampering any 
redevelopment efforts surrounding the site. This story is 
repeated across the Nation, with States and communities waiting 
for DOE to fulfill its obligations and dispose of the spent 
fuel.
    The Federal Government has recently been at an impasse in 
efforts to advance our Nation's nuclear waste management 
program. The consequences of this impasse are significant and 
worsen our Nation's fiscal health. The costs to the American 
taxpayer to pay for the Federal Government's delay in opening 
the Yucca Mountain repository have nearly doubled to $30 
billion since 2009 and that figure continues to escalate 
rapidly.
    A thoughtful and deliberate legislative process produces 
good legislation. This subcommittee has received testimony from 
over 30 witnesses to develop and inform this discussion draft. 
Subcommittee Chairman Shimkus led a trip to the Yucca Mountain 
site with our colleagues to see firsthand the remote site 
adjacent to the isolated Nevada National Security Site. The 
committee also sent numerous oversight letters to the 
Department of Energy to seek information regarding approaches 
to managing our Nation's nuclear waste and spent nuclear fuel. 
While the previous administration was kicking the can down the 
road and avoiding this difficult issue, we were working towards 
a solution.
    The time to fix this problem is now, and today's hearing on 
the discussion draft will initiate the process of receiving 
feedback from stakeholders on legislative language. I welcome 
the testimony this morning and look forward to providing a path 
forward to solve this significant national challenge.

    Mr. Walden. I would now like to yield a minute to my 
colleague from Tennessee, Mrs. Blackburn, and then I will yield 
to Mr. Barton the remaining time after that.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I am 
appreciative that each of you are here today before us. This is 
an issue that we have looked at previously, and will return to. 
Nuclear power does play an important component part in TVA's 
overall electric generation capability, and because of that, we 
in Tennessee are, indeed, concerned about this issue. And I 
know that more than 30 years ago, Congress has started the 
process of grappling with this issue. And while you can do on-
site storage, and that is safe, there needs to be permanent 
storage. So for those of us that do rely on electric power 
generation coming from nuclear power, we appreciate the 
discussion and the ability to look at how we move forward with 
safe, reliable nuclear power in this country. I yield back.
    Mr. Walden. I yield the balance of my time to the former 
chairman of the full committee, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. Let's see a show of 
hands in the audience of people who have been born since 1982. 
Raise your hand if you have been born since 1982. Now this is a 
pretty graybeard audience, Mr. Chairman. But in 1982, I was a 
White House fellow in the Department of Energy, and I played a 
very minor, minor role in the drafting of what we now call the 
Nuclear Waste Policy Act of 1982. It was my job as a White 
House fellow to work with the technical staff in the Department 
of Energy, and then explain to the Secretary of Energy, the 
late Jim Edwards of South Carolina, what we were trying to do.
    So, I had to read the language, understand from the 
technical staff, and then try to explain to him what we were 
doing. That was 35 years ago. And at that point in time, we 
thought by now we would, somewhere, be storing high-level 
nuclear waste permanently. That obviously has not happened for 
a lot of reasons. The amendments that you are discussing today, 
Mr. Chairman, the 2017--my phone is ringing.
    Mr. Walden. They didn't have those in 1982, I would point 
out.
    Mr. Barton. They sure didn't. Didn't have the internet. Al 
Gore hadn't invented it yet. In any event, the legislation that 
we are going to discuss today, Mr. Chairman, finally cuts the 
Gordian Knot, and I want to commend you and the full committee 
chairman and everybody that has worked on this. For the first 
time, it will allow interim to have a chance to be certified as 
we look at the permanent repository.
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Barton. Anyway, Mr. Chairman, I apologize for the phone 
call. This is an excellent piece of legislation. I totally 
support it, and we are finally going to solve it under the 
leadership of this committee and this Congress.
    Mr. Shimkus. The chairman thanks the gentleman. The Chair 
now recognizes the gentlelady from California, Ms. Matsui, for 
5 minutes.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you very much, Mr. Chairman. I want to 
welcome our colleagues here today on this panel and also the 
next panel also. This is such an important issue, and I think 
for all of us here, it really does need a solution, so we are 
hoping that we can move toward that. In my local public 
utility, the Sacramento Municipal Utility District, maintains 
the decommissioned Rancho Seco Nuclear Power Plant. So I have 
been interested in spent nuclear fuel management issues for 
many, many years now.
    I support a comprehensive, long-term strategy for nuclear 
waste disposal that includes an important role for consolidated 
interim storage. Regardless of the status of permanent 
repository, an interim storage facility is a necessary step in 
the right direction for the management of our Nation's nuclear 
waste. We have private consolidated interim storage applicants 
that want to take spent fuel. I believe we can move forward 
with the interim storage process, while at the same time, 
addressing the issues surrounding a repository.
    Regardless of the path we choose, it is important that 
spent fuel from decommissioned plants receive first priority 
under a waste management program. I would like, and all of us 
here would like to move forward on this, and I believe with the 
discussion that we have today, and we have been having, we are 
going to be moving forward. But I believe we also should 
understand that we have a lot of decommissioned nuclear power 
plants waiting right now, and we would like to move ahead with 
some interim-type storage so that some of these sites can 
actually be used for other purposes.
    So, thank you very much, Mr. Chairman, for having this 
hearing here today. And I would like to ask my colleagues on my 
side if there is anyone who would like the rest of the time? If 
not, I yield back. Thank you.
    Mr. Shimkus. The gentlelady yields back her time. We now 
conclude with Members' opening statements. The Chair would like 
to remind Members that pursuant to committee rules, all 
Members' opening statements will be made part of the record.
    Now we want to thank our witnesses and first panel for 
joining us today. I will recognize you each when it is time for 
you to speak, and your full statement can be submitted for the 
record. Now it is my pleasure to introduce my friend, sometime 
combatant, the senior Senator from the State of Nevada, Dean 
Heller. Sir, you are recognized for 5 minutes.

STATEMENT OF HON. DEAN HELLER, A UNITED STATES SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Heller. Mr. Chairman, thank you. And to the ranking 
member, thank you also.
    Mr. Shimkus. Are you close to the mic?
    Senator Heller. Yes, it is on. Let me just get a little bit 
closer. I want to thank the committee also and for the diverse 
testimony that we heard already here, and I am very 
appreciative of the opportunity to be here with most of the 
colleagues of our delegation. I think it sends a pretty strong 
message.
    Having said that, Mr. Chairman, since 1987, Yucca 
Mountain's Nuclear Waste Repository has been a thorn in 
Nevada's side. Due to political antics, not science, Nevada 
quickly moved to the Federal Government's number one targeted 
location to permanently store all of the Nation's nuclear 
waste. Our State has been fighting this misguided proposal ever 
since, and we are not finished.
    Although I recognize the role that nuclear power plays in 
our Nation's long-term energy strategy, and the need to 
properly store expired nuclear fuel, I remain strongly opposed 
to any effort to reinstate Yucca Mountain. This ill-conceived 
project would not only cause significant harm to the well-being 
of my home State, it also poses a national security risk that 
is too great to ignore. So, Mr. Chairman, my position remains 
the same. It is that Yucca Mountain is dead.
    It is time to move past failed proposals of the past and 
look for solutions to the future. Mr. Chairman, while we both 
disagree on the issue of Yucca Mountain, we are in agreement 
that it is in the best interest of our Nation that a program to 
dispose of and to store spent nuclear fuel and high-level 
radioactive waste be implemented as soon as possible.
    I appreciate your commitment to ensure that progress is 
made on this issue. However, I do not believe the bill that is 
before the committee today is the solution. Rather, I believe 
it would only lead to more litigation on this issue, wasting 
more taxpayer dollars while usurping States' air and water 
permitting authority. Governor Sandoval has made it clear that 
the State of Nevada will contest over 200 elements of any 
application process.
    Rather than attempting to force this project on the people 
of Nevada, a State that currently does not have any nuclear 
power plants of its own, taxpayer dollars would be better spent 
identifying viable alternatives for the long-term storage of 
nuclear waste in areas that are willing to house it.
    Before I discuss the issue of consent-based storage, I 
would like to first address the bill that is before us today, 
and I have a test that I usually perform when evaluating 
legislation. It is called ``More, Higher, Less.'' Does the bill 
more competition, higher quality at less cost? And let me 
address each of these categories with respect to the bill that 
is before us today.
    Does this bill provide more competition? Instead of 
allowing the consent-based siting, this bill would make Yucca 
Mountain the only repository. It also eliminates the current 
requirement for progress on a second repository. This 
legislation does, however, allow for more Federal Government 
control over State permitting authority, usurping the State of 
Nevada. Mr. Chairman, the preemption of the State water laws 
and the States' authority to issue air permits is simply 
jarring. Let me repeat that. The preemption of State water laws 
and States' authority to issue air permits, in my opinion, is 
absolutely jarring.
    Next, does this bill provide higher quality? Not to 
Nevadans. By eliminating the current capacity elimination of 
70,000 metric tons of heavy metal, this legislation would allow 
for the unlimited disposal of spent nuclear fuel and high-level 
radioactive waste. Furthermore, by allowing the EPA 
administrator to change the repository radiation protection 
standards before final licensing by the Nuclear Regulatory 
Commission, you run the risk of eroding standards that were put 
in place to protect public health.
    And finally, by allowing thousands of nuclear waste 
shipments to Yucca Mountain, you create a higher national 
security risk, ignoring recommendations made by the National 
Academy of Sciences and the Blue Ribbon Commission.
    Will this bill provide less cost? The Federal Government 
has already spent decades, wasted billions of dollars, to 
design and permit Yucca Mountain without any, without any 
rational hope that Nevada will consent to the project. And 
Nevada never will. The State of Nevada will contest any license 
application. This means years, years of litigation, while 
progress remains stalled on how to dispose of spent nuclear 
waste. But it doesn't have to be that way.
    I come to the table with a bipartisan solution supported by 
members of my delegation that join us today. I want to thank 
Congresswoman Titus, Congressman Kihuen, and Congresswoman 
Rosen for partnering with me to introduce the Nuclear Waste 
Informed Consent Act. Our legislation would allow for the 
construction of a nuclear waste repository only if the 
Secretary of Energy has a secure written consent from the 
Governor of the host State, affected units of local government, 
and affected Indian Tribes. This is consistent with the 
consent-based siting initiative to site waste storage and 
disposal facilities initiated by the Department of Energy in 
the late 2015.
    Identifying communities that are willing to host for long-
term repositories, rather than forcing it upon States, is the 
only viable solution to our Nation's nuclear waste problems. I 
encourage the subcommittee to focus its efforts on that 
worthwhile initiative. Failing to do so would just squander 
more time and resources that would be better spent pursuing 
viable solutions to this important public policy challenge.
    Mr. Chairman and Ranking Member Tonko, thank you again for 
the opportunity to appear before you, and I stand ready to 
partner with you, to find a viable solution to this problem 
once and for all.
    [The prepared statement of Mr. Heller follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. We thank the gentleman. Now we will turn to--
now, we are always having this debate. We called your staff to 
make sure we had the pronunciation right. We were told Kihuen. 
Is that correct?
    Mr. Kihuen. That is correct.
    Mr. Shimkus. OK. Very good. This is the first time we have 
had a chance to meet, so I am glad to welcome you, a Member of 
Congress representing the 4th District of Nevada, and you are 
recognized for 5 minutes.

STATEMENT OF HON. RUBEN J. KIHUEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Kihuen. Thank you, Mr. Chairman. Thank you, Ranking 
Member Tonko and subcommittee members, for this opportunity to 
testify before today's subcommittee hearing, and I am grateful 
that you could accommodate my request despite the short notice, 
so thank you so much, Mr. Chairman.
    I was disappointed to learn that the committee had 
scheduled a hearing on the Nuclear Waste Policy Act of 2017, 
especially considering that there was no representation from 
our State in this committee. As I mentioned in my letter, Yucca 
Mountain is in my district, and my constituents and all 
Nevadans have the right to have their voices heard.
    They deserve to be part of the conversation, especially 
when it concerns their safety and their security. To Nevadans, 
it seems like the other people are just trying to pawn off 
their problems by dumping nuclear waste in our beloved State. 
For many Nevadans, this just feels like deja vu, and is 
reminiscent of the passage of the 1987 law often correctly 
referred to as the Screw Nevada Bill, that halted the study of 
possible repository sites elsewhere in the country over the 
vociferous objection of the State. Now, as in 1987, the idea 
that Nevada should be of use as nothing more than a dumping 
ground for the rest of the country's nuclear waste is opposed 
by most Nevadans, an overwhelming majority of most Nevadans. 
Democrat and Republican alike, Nevadans do not want this 
project to move forward in their State.
    Yucca Mountain is located less than 100 miles northwest of 
Las Vegas, a metropolitan area of more than 2 million people, 
more than three times the entire population of Nevada when this 
bad idea was first passed in 1987.
    The proposed nuclear waste repository site at Yucca 
Mountain would pose a real threat to the economy of southern 
Nevada. Our economy relies on tourism. With nearly 43 million 
people visiting Las Vegas in 2016, any accident involving 
nuclear waste in the area would lead to a massive, massive loss 
in visitors, which, in turn, would have severe ripple effects 
through the entire Nevada economy.
    Many of you may not know this, but the area around Yucca 
Mountain is seismically active, and an aquifer runs beneath the 
proposed repository site. Additionally, placing a large amount 
of nuclear waste in an unsuitable site, a site like Yucca 
Mountain, could lead to numerous potential health issues. 
Substandard care or the mere passage of time could lead to 
leaking and leaching of nuclear material into the aquifer.
    Rather than waste millions more on unnecessary nuclear 
waste, we should look for ways to invest these funds in Nevada 
more strategically. Plenty of Nevadans are still out of work. 
Imagine what this money could do to help grow our economy. I 
have toured Nevada's 4th Congressional District on multiple 
occasions, and every time I visit, I see firsthand the need to 
invest in infrastructure projects that could create jobs. 
Dumping money into this project is a poor use of Federal funds.
    Nevadans are strongly opposed to the construction of this 
project. As a State with no nuclear energy facilities, it is 
exceedingly unfair that Nevada is asked to serve as a dumping 
ground for the rest of the country's waste at the great risk of 
our citizens.
    I ask each of you in the committee to consider this: If 
this project was proposed in your district, near your family 
and threatened your constituents' lives and jobs, would you 
support it? If the answer is yes, then let's find a place in 
your district. If the answer is no, as it surely is, you 
cannot, in good conscience, vote to send a country's nuclear 
waste to my district. I urge the committee to vote no and keep 
this project dead and buried as it should be. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Kihuen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes Congresswoman Titus, the first one who corrected 
me on how to pronounce Nevada versus ``Ne-vah-da.'' And I 
always get it right after that. So with that, you are 
recognized for 5 minutes.

STATEMENT OF HON. DINA TITUS, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF NEVADA

    Ms. Titus. Well, thank you very much, Mr. Chairman, I 
Ranking Member Tonko and members of the committee. I 
unfortunately was born in 1982, and I think I have been working 
on this project ever since. As you well know, Yucca Mountain 
has been an issue of major importance for three decades dating 
back to 1982 when President Reagan first signed the Nuclear 
Waste Policy Act. The Screw Nevada Amendments of 1987 made the 
matter even more pressing by singling out Yucca Mountain as the 
primary focus for a permanent repository. In the years that 
have followed, I, along with my colleagues, both Democrat and 
Republican here in Congress, along with the Governor's Office, 
the State legislature, Tribal and local government leaders, 
have together, with business leaders, been leading the fight 
against Yucca Mountain. We have been united and with just rare 
exceptions, in vehement opposition to this proposal.
    And it is not just Nevada that is going to be adversely 
affected. Any waste coming to the site will have to travel 
through virtually every congressional district in the country, 
coming very close to homes, schools, churches, farms, and 
factories.
    Just yesterday, I received a letter signed by over 80 
organizations from across the country in opposition to the 
repository at Yucca Mountain, along with a letter from the 
American Gaming Association, expressing opposition. And with 
your permission, Mr. Chairman, I ask that these letters be 
entered into the record.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Titus. Thank you. Over the years, as you know, billions 
of dollars have been wasted on this boondoggle, and still, we 
are no closer to a solution. I agree with my colleagues that 
this is bad for Nevada in general. But let's look at some of 
the specifics of the legislation before us. It wasn't until the 
Obama administration assembled the Blue Ribbon Commission on 
America's nuclear future that included some of the most 
respected experts in the field, that we released a list of 
recommendations that could be used to guide us in this area. 
One such recommendation, which goes to the heart of the matter, 
is adopting a consent-based process by which repositories are 
sited. That is why I recently reintroduced H.R. 456, the 
Nuclear Waste consent Act, along with my colleague in the 
Senate, Senator Heller, and here in the House. This legislation 
codifies the Blue Ribbon recommendation that siting of a 
repository be done not just in consultation with host States, 
Tribes, local governments, but with their approval.
    I was surprised to see, Mr. Chairman, that you adopted the 
framework of this legislation in Section 143 of the draft 
before us with regards to interim sites. They are now called 
monitored retrievable storage. If we are to be successful in 
addressing the concerns of communities like yours where nuclear 
power plants are located, we should also have this same 
consideration going forward with permanent sites. The draft 
bill should afford the same consent-based provision that you 
are offering interim sites to permanent storage facility.
    Other ways that this bill goes in the opposite direction 
from recommendations, the bill removes language from the 
original law that requires progress, progress on a second 
repository, thereby dictating that Nevada will be the sole site 
for dumping of the waste. If that is not bad enough, it removes 
the cap of 70,000 metric tons of nuclear waste, making way for 
us to take as much as you can possibly find or generate, an 
unlimited source. This is a significant change, which calls 
into question the entirety of the licensing and safety 
evaluation for the project. As NRC references in a number of 
different provisions, including the license application, this 
repository does not take into account unlimited increases in 
dangerous waste, as is being proposed in this bill draft.
    And finally, as you have heard from the Senator, this is 
very important, especially to those of us from the West, you 
need to be concerned about Section 202. That is the section 
that usurps the State's right to control its own water. Now, I 
know many of you were opposed to the Waters of the West rule 
that came under the Obama administration, railing against it as 
Federal overreach and outrageous power grab, and yet, that is 
exactly what this bill does, takes that power to control water 
away from the States.
    These are just some of the serious issues that we have been 
addressing for decades in Nevada. I ask that you give them 
consideration yourselves as you attempt to move forward to 
solve this solution. Nevada has done its share. We have still 
got the scars from the mushroom clouds and the atomic tests in 
the 1950s as we developed nuclear weapons. We didn't produce 
this waste. We don't want it. We don't deserve it. We don't 
have any nuclear plants, and we will continue to fight it. So 
keep it where it is, and let's look for some reasonable 
solution. And I thank you very much.
    [The prepared statement of Ms. Titus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. I thank my colleague. The Chair now recognizes 
another new Member of Congress, the Honorable Jacky Rosen from 
the 3rd District. Ma'am, you are recognized for 5 minutes.

  STATEMENT OF HON. JACKY ROSEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Ms. Rosen. Thank you. Thank you, Chairman Shimkus, Ranking 
Member Tonko, members of the subcommittee. I want to thank you 
for the opportunity to testify, and I am here to make one thing 
clear, that Nevadans wholeheartedly oppose become being the 
Nation's nuclear dumping ground. In 1987, Congress amended the 
Nuclear Waste Policy Act and targeted Yucca Mountain, located 
less than 100 miles northwest of Las Vegas as the sole site for 
our Nation's geological repository. For over 30 years, the 
State of Nevada and local communities, including the 
constituents that I represent, have rejected this project on 
safety, public health, and environmental grounds. In fact, the 
State has filed 218 contentions against the DOE's license 
application, challenging the adequacy of DOE's environmental 
impact assessments. Numerous scientific studies have deemed 
Yucca Mountain unsafe, based on the fact that the site is 
seismically active and sits above an aquifer. The repository 
may not be able to prevent radioactive contamination for 
groundwater for over 1 million years. That is a Federal safety 
requirement.
    Yucca Mountain would require transporting over 70,000 
metric tons of radioactive waste, many of those routes right 
through my district, through the heart of Las Vegas, a city 
that attracts 43 million visitors annually, and generates $59 
billion to our economy, according to the Las Vegas Convention 
and Visitors Authority.
    Severe transportation accidents, they threaten the health 
and safety of tourists and individuals who live along these 
proposed routes and would cause hundreds of millions of dollars 
of damage in cleanup costs and related economic costs.
    We are talking about shipping a total of nearly 9,500 rail 
casks, which is equivalent to 2,800 trains, or 2,650 truck 
casks over 50 years, which is bad enough. But eliminating the 
second repository, your bill, increases those numbers to 6,700 
trains, and over 5,000 trucks. This translates to roughly one 
to three trains, or one to two truck shipments through Nevada 
per week every week for 50 years, from 76 shipping sites across 
the country. All those trucks would use the I-15 corridor, 
known to be one of the most dangerous highway systems in the 
country, according to the Nevada AAA. Do you honestly believe 
that shipping over 5,000 truck casks of high-level nuclear 
waste over a span of 50 years won't result in at least one 
radiological accident?
    And in the event of a radiological release, it is said to 
be nearly impossible to determine the range of exposure, let 
alone the long-term health effects for those facing exposure. 
Cancer, genetic defects, asthma, they have all been related to 
radiation. The victims of such negligent policy won't be your 
constituents, Mr. Chairman, but rather the ones who live in our 
districts. These are our friends, our neighbors, our children.
    And yet, while any legislation must include and implement 
the National Academy of Science's safety and security 
recommendations, such as shipping older fuel first and full-
scale testing of the casks, this bill fails, it absolutely 
fails to fulfill such requirements.
    Any plan addressing nuclear waste storage must be based on 
scientific analysis, as well as trust and agreement among 
affected parties. In 2012, the Blue Ribbon Commission on 
America's Nuclear Future issued its final report on nuclear 
waste storage, recommending a consent-based process for 
choosing a site. I am proud to be an original cosponsor, along 
with my colleagues, of the Nuclear Waste Informed Consent Act--
a bill supported by the entire Southern Nevada delegation--that 
would prohibit the dumping of nuclear waste in a State without 
its consent.
    I request that the text of this bill and two other 
documents I have to be entered into the official record of this 
hearing.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Rosen. Your Nuclear Waste Policy Amendments Act ignores 
the environmental, safety, and security concerns of Nevadans 
who would be forced to store nuclear waste that they had no 
role in creating. I urge the subcommittee to stop wasting 
billions in taxpayer dollars by resurrecting a project that has 
been dead for over 30 years, and instead identify viable 
alternatives for long-term repository in areas that are proven 
safe, and whose communities consent to storage. Thank you.
    [The prepared statement of Ms. Rosen follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Shimkus. The gentlelady yields back her time. The Chair 
recognizes my colleague from South Carolina, Joe Wilson, for 5 
minutes.

STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE IN CONGRESS FROM 
                  THE STATE OF SOUTH CAROLINA

    Mr. Wilson. Chairman John Shimkus, Ranking Member Paul 
Tonko, thank you for having me here today. I am grateful to 
have the opportunity to testify before the Energy and Commerce 
Subcommittee on Environment. I was grateful to serve as the 
former Deputy General Counsel to the Department of Energy 
during the Reagan administration, serving with Secretary Jim 
Edwards. I know the Department has very competent personnel, 
and we are fortunate with the new leadership of Secretary Rick 
Perry.
    In January, I introduced the Sensible Nuclear Waste 
Disposition Act, and I appreciate that it has been included in 
the Nuclear Waste Policy Amendments Act of 2017. The Sensible 
Nuclear Waste Disposition Act is a commonsense legislation that 
simply requires that the Nuclear Regulatory Commission make a 
licensing decision one way or another about Yucca Mountain 
before the Department of Energy can consider other options for 
long-term disposal. I appreciate the concerns of Nevada. I am 
also hopeful that we recognize that there should be a national 
perspective when it comes to managing and storing nuclear 
waste.
    Today there are currently 121 communities across 39 States 
that are grappling with the limitations of storing nuclear 
waste while our country lacks a permanent geological 
repository. Communities in my home State of South Carolina, 
adjacent to our neighbors of Georgia, also in the chairman's 
State of Illinois, the ranking member's State of New York, and 
the home State of a majority of the members of this committee, 
all store nuclear material. Each of the 121 communities has 
been forced to store nuclear waste while they wait for the 
Federal Government to honor its promise by providing permanent 
storage at Yucca Mountain. Ms. Matsui has made an excellent, 
good new point. These sites can be redeveloped for better use.
    While the nuclear material is currently being safely stored 
across the country, we are in desperate need of a long-term 
viable solution. Having a single permanent repository for high-
level nuclear waste is critical for our national security. 
Right now, in the absence of a permanent repository, nuclear 
material is stored all over the United States, making it 
difficult and costly to secure. Having a single location, 1,000 
feet underground, is far more effective and secure for the 
environment with one location instead of 121 sites across the 
Nation.
    Additionally, competing the licensing process for Yucca 
Mountain is fiscally responsible. The Federal Government has 
dedicated enormous resources to completing the nuclear storage 
facility at Yucca Mountain. American taxpayers have invested 
over $3.7 billion into Yucca Mountain. Additionally, energy 
utility ratepayers from across the country have contributed 
over $30 billion to the Nuclear Waste Fund that can only be 
used toward the construction and operation of Yucca Mountain, 
with citizens from South Carolina, Illinois, New York, having 
put each State over $1 billion into the account. Starting over 
with another project would cost billions for taxpayers and 
ratepayers alike, and would take decades to complete, leaving 
121 sites across the country as de facto dumping grounds for 
nuclear waste.
    We have a duty to work toward a permanent repository for 
nuclear waste. The Nuclear Waste Policy Amendments Act does an 
excellent job of strengthening the Nuclear Waste Policy Act and 
advancing our shared goals of protecting National security and 
promoting our national environment cleanup mission.
    Thank you for the opportunity to testify before you today. 
Thank you for your time and attention, and the balance of my 
testimony is being submitted for the record.
    [The prepared statement of Mr. Wilson follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Shimkus. The gentleman yields back his time. So I want 
to thank you all for your testimony. As you may know, it is 
committee practice not to ask the Members questions following 
their statements. So let me thank you again for taking the time 
to present your important perspectives today, and we will sit 
the second panel. Thank you very much.
    We would ask our new guests to find a seat so we can get 
the door closed and start with our second panel as soon as 
possible.
    We want to thank the second panel for appearing with us 
today. I will introduce you one at a time when your time to 
speak comes up. Your full statement is submitted for the 
record. You will have 5 minutes. We will be very lenient on 
that as long as you don't go 2 or 3 minutes over. And with 
that, I would like to first recognize the Honorable Ward 
Sproat. I mentioned him in my opening statement. Former 
Director of the Office of Civilian Radioactive Waste Management 
at the Department of Energy. I always beat on my staff not to 
do acronyms, OCRWM, and make sure we know what that really 
means. So we have worked together numerous times. It is great 
to have you. You are recognized for 5 minutes.
    Mr. Sproat. Good morning, Chairman Shimkus, Ranking Member 
Tonko.
    Mr. Shimkus. Let's try to pull the mic closer. Make sure 
the button is on.

STATEMENTS OF EDWARD F. SPROAT III, FORMER DIRECTOR, OFFICE OF 
 CIVILIAN RADIOACTIVE WASTE MANAGEMENT, DEPARTMENT OF ENERGY; 
ANTHONY J. O'DONNELL, CHAIRMAN, SUBCOMMITTEE ON NUCLEAR ISSUES 
 09WASTE DISPOSAL, NATIONAL ASSOCIATION OF REGULATORY UTILITY 
  COMMISSIONERS; EDWIN LYMAN, PH.D., SENIOR SCIENTIST, GLOBAL 
  SECURITY PROGRAM, UNION OF CONCERNED SCIENTISTS; STEVEN P. 
NESBIT, CHAIRMAN, BACK-END WORKING GROUP, UNITED STATES NUCLEAR 
 INFRASTRUCTURE COUNCIL; AND MARK MCMANUS, GENERAL PRESIDENT, 
UNITED ASSOCIATION OF UNION PLUMBERS, PIPEFITTERS, WELDERS, AND 
                      SERVICE TECHNICIANS

               STATEMENT OF EDWARD F. SPROAT III

    Mr. Sproat. Thank you very much for your invitation to 
address the committee this morning about the proposed 
legislation. I would like to make it clear to the committee 
that the opinions I am going to express this morning are 
strictly my own. In no way should they be construed as 
representing my current employer, and are based on my 
experience in running the Office of Civilian Radioactive Waste 
Management at the Department of Energy from 2006 through the 
beginning of 2009.
    I appeared before this committee back in July of 2006, 11 
years ago, and at that point in time, I made a commitment to 
the committee to submit a quality license application for Yucca 
Mountain by June 30 of 2008. I actually delivered that to the 
NRC on June 3 of 2008, after the work of several thousand very 
qualified, very smart people, both in the Department of Energy 
and the National Labs who had worked for a very long period of 
time to put that license application together.
    The subsequent review by the NRC staff took almost 7 years, 
and culminated with the issuance of the last of their five 
volumes of their safety evaluation report, or their SER, in 
January of 2015. Their review, the NRC staff's review, 
concluded that the design met all the technical requirements, 
including the million year postclosure radiation release 
requirement that was set by the EPA.
    However, in their evaluation, there were two issues left 
that they said need to be addressed before the staff could 
recommend to the full commission that a construction license 
for Yucca Mountain be granted. One was permanent land 
withdrawal, because the Department could not show that at some 
time in the future, public access to the site would be 
available. And the second was water. And in terms of the State 
of Nevada, water engineers not permitting the Department 
permits to make water withdrawals at the site.
    So the next step in the NRC licensing process is to 
litigate the well over 200 contentions that have been filed by 
the interveners in front of the Atomic Safety and Licensing 
Board. Both the NRC and the Department of Energy must be 
adequately funded to litigate those contentions in front of the 
ASLB, and we would expect that period of time to be at least 2, 
probably 3 to 4 years for that litigation to occur before all 
the contentions can be adjudicated, appealed, and a final 
decision made by the Nuclear Regulatory Commission on granting 
a construction permit or not on the Yucca Mountain license 
application.
    The other key thing that is very, very important on moving 
forward is the Department of Energy, as the applicant, must be 
a willing applicant to vigorously defend the license 
application, and I think it would be pretty safe to say that 
over the past 8 years, the past administration was not willing 
to do that.
    So I would like to move on and just quickly address a 
couple of things about the issues that need to be addressed 
with modifying and amending the Nuclear Waste Policy Act. First 
of all, one of the first key issues is access to the Nuclear 
Waste Fund, and this issue arose a number of years back when 
the receipts being collected from the utilities around the 
country were classified as mandatory receipts, but the 
appropriations for the Department to build the repository are 
classified as discretionary. As a result of that mismatch 
between mandatory receipts and discretionary appropriations, 
any appropriations for the repository is scored as negative 
against the budget. So that needs to be fixed.
    The issue of permanent land withdrawal, we have already 
talked about a little bit. The issue of water permits at the 
site, we have talked a little bit about. I just want to give 
you one quick vignette. When we were trying to drill a small 
well at the site to understand the seismic aspects of the site, 
we needed water to cool the drill bits, and the State of Nevada 
withheld those permits. So that is one of the issues of why the 
issue of water rights is in this legislation.
    The other issue that needs to be addressed is 
transportation. Regardless of whether we are talking about an 
interim storage site, a permanent repository, every site is 
going to need to address the issue of transportation. When you 
have high-level waste at 121 sites in 39 different States, it 
doesn't matter whether you have local consent or not if you are 
not able to get the material there, which means that getting 
consent across those various political boundaries is going to 
be a challenge without some kind of clear Federal direction on 
their ability to direct that transportation to occur.
    So in conclusion, it has been 35 years since the Nuclear 
Waste Policy Act has been passed, and right now, we are 
probably within 3 to 4 years of finally getting a decision on 
whether or not the repository at Yucca Mountain is licensable 
or not. Providing the necessary funding to the Department and 
to the NRC to finish the hearings and finish the licensing 
process, I think is really the right next step. To me, starting 
over at this stage of the game, being this close to getting a 
final NRC decision, makes no sense at all given the past 
history of this project and how long it has taken.
    And I guess finally, the last point I would like to make, 
is regardless of the outcome of the NRC licensing process, new 
legislation is going to be needed in order to address the 
problems that I have outlined in order to get the spent nuclear 
fuel and high-level nuclear waste from those 121 sites in 39 
States to a central repository at some point in time in the 
future.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sproat follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. We thank you for your service to our country, 
and it is great seeing you again. The Chair now recognizes Mr. 
Anthony O'Donnell, chairman of the Nuclear Issues Subcommittee 
at the National Association of Regulatory Utility 
Commissioners, which is NARUC. You are recognized for 5 
minutes.

               STATEMENT OF ANTHONY J. O'DONNELL

    Mr. O'Donnell. Thank you. Thank you, Mr. Chairman. Good 
morning and Ranking Member Tonko, both, and members of the 
Subcommittee on the Environment. Thank you for the opportunity 
to testify today on the Nuclear Waste Policy Amendments Act of 
2017. My name it Tony O'Donnell. I am a commissioner on the 
Maryland Public Service Commission, and I also serve as 
chairman of National Association of Regulatory Utility 
Commissioners, as you heard from the chairman, NARUC, 
Subcommittee on Nuclear Issues and Waste Disposal.
    As you know very well, this matter of the Nation's high-
level nuclear waste policy is a high-priority issue for NARUC 
and its members. The electricity consumers in the United 
States, often referred to as ratepayers in industry jargon, 
have paid more than $40 billion in direct payments and accrued 
interest into the Nuclear Waste Fund over the last 30 years. To 
date, we have virtually nothing, repeat, nothing, to show for 
this substantial tax on nuclear-generated electricity. In fact, 
the collection of the fee to pay for the Federal nuclear waste 
program is the only component of the program that has ever 
worked as intended.
    I am here today on behalf of NARUC to applaud the 
subcommittee for its leadership, and support your efforts to 
get this program moving once again. In our view, the discussion 
draft that is the subject of today's hearing is a very positive 
and welcome step forward to put the program on solid footing, 
and to move the program to a point where decisions will be 
based on the merits of the work performed and not based on the 
politics of the moment.
    I would like to very briefly address what we believe are 
some of the highlights of the draft legislation and point out a 
couple areas of concern.
    We are very pleased that the draft aggressively addresses 
the threshold issue of licensing. The draft requires a final 
NRC decision approving or disapproving Yucca Mountain license 
application before other major provisions can be implemented. 
We commend the committee for making progress contingent on some 
decision on a permanent repository license.
    We are similarly pleased that the discussion draft 
addresses how the current funds in the Nuclear Waste Fund will 
be disbursed. The draft specifies that certain percentages of 
the amounts in the waste fund on the date of the enactment must 
be available to the Secretary on certain trigger dates. The 
specification that those funds be made available, quote, 
``without further appropriations,'' end quote, is an excellent 
way to assure both confidence and progress in the program.
    Please note that NARUC members will need to see the actual 
percentages prior to providing unqualified support for that 
section, 503. The discussion draft's revised mechanism assures 
any fees collected going forward are immediately available to 
the Secretary for the waste-related activities without 
additional appropriations. If the NWF fee is restarted, this 
provision is absolutely crucial.
    With regard to restarting the fee collection, we believe 
that expressly linking any restart of the NWF fee to a final 
NRC decision on licensing repository is, again, the right 
approach. The legislation would benefit from a specification 
that is part of the annual assessment of the need for, or level 
of, any fee. The Secretary included an analysis on whether the 
annual interest on the corpus is sufficient to cover the 
projected outlays for the repository and any other required 
disbursements.
    The draft contains a provision which NARUC supports, that a 
cost benefit analysis is a prerequisite for any nonfederally 
licensed storage facility. In Section 602 of the draft, the 
Director of the Office of Civilian Radioactive Waste Management 
is given a 5-year term. The subcommittee may wish to consider 
increasing the term length to provide greater stability in the 
program across successive administrations.
    Finally, one area that has raised definite concerns is 
Section 301's discussion of the requirement for DOE to take 
title to waste. The discussion draft should clarify and/or 
define what constitutes, quote, ``delivery and acceptance,'' 
end quote. The definition must assure that DOE cannot simply 
take title of waste in situ, that is where it is currently 
being stored, and claim they have met their contractual 
obligations. Additionally, the definition must make clear that 
any transfer of title to DOE includes removing the waste to a 
different NRC licensed storage facility.
    Mr. Chairman, this concludes my testimony today, and I will 
be pleased to take any questions that the members may have.
    [The prepared statement of Mr. O'Donnell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back the time. Thank you 
very much.
    Now, I would like to turn to Dr. Edwin Lyman, senior 
scientist of the Global Security Program at the Union of 
Concerned Scientists.
    Sir, you are recognized for 5 minutes.

                    STATEMENT OF EDWIN LYMAN

    Dr. Lyman. Yes. Good morning. And on behalf of the Union of 
Concerned Scientists, I would like to thank Chairman Shimkus 
and Ranking Member Tonko and the other distinguished members of 
the subcommittee for the opportunity to provide our views on 
this very important subject.
    UCS has more than 500,000 supporters united by a central 
concern that we need sound, scientific analysis to create a 
healthy, safe, and sustainable future. In addition, we are 
neither pro- nor antinuclear power, but we have served as a 
nuclear power safety and security watchdog for nearly 50 years. 
And in that respect, we believe it is critically important that 
spent fuel be managed safely and protected from a terrorist 
attack until it can be buried irretrievably in a geologic 
repository. But in addition, the sustainable nuclear waste 
strategy must also have broad public acceptance.
    So to this end, we appreciate the interest of the authors 
of the discussion draft in moving the ball forward in nuclear 
waste disposal, but we do disagree with the draft bill's 
limited scope and its Yucca Mountain-centric approach. We need 
a comprehensive strategy that addresses all aspects of the 
problem, including security and safety of transportation and 
storage both at and away from the actual sites. And we do need 
to find--at least try to find--an approach for a repository 
siting that could facilitate local and regional cooperation 
rather than heighten already entrenched opposition. And I think 
we have already seen the discussion draft is going the wrong 
direction by attempting to resolve disputes by overriding State 
authority instead of promoting dialogue and cooperation. And 
the State of Nevada, predictably and justifiably, is crying 
foul.
    We strongly support the development of geological 
repositories for direct disposal of spent fuel. We do not have 
the geological expertise on staff to assess the technical 
suitability of Yucca Mountain or any other potential site. But 
with regard to political suitability, we do believe that the 
Blue Ribbon Commission report was correct that the process by 
which Yucca Mountain was selected was flawed and has 
contributed to the erosion of trust that caused the program to 
stall.
    And so we believe Congress needs to pursue a different and 
less adversarial approach that would be more likely to lead to 
selection of sites that are both technically suitable and 
publicly acceptable. And once such a process is in place, Yucca 
Mountain could and then should compete with other repository 
proposals on a level playing field.
    One cannot underestimate the technical problems associated 
with building repository to effectively isolate nuclear waste 
from the environment for hundreds of thousands of years. The 
foundation of such an effort is good science. And one of the 
best ways Congress could improve the prospects for any 
repository is to fully support the scientific work needed to 
establish its technical basis.
    In the case of Yucca Mountain, there are nearly 300 
technical contentions that would have to be adjudicated, and we 
think the viability of Yucca Mountain depends critically on 
their resolution. And we do note that technical members within 
DOE have no doubt moved on to other things since the Yucca 
Mountain was terminated. So DOE, even if it gets all the 
resources it needs now, it will take time to reconstitute that 
expertise and to attempt to successfully defend its 
application.
    A comprehensive strategy for waste management must address 
safety and security of spent fuel at reactor sites. Even if 
Yucca Mountain received a license tomorrow, there would be a 
lot of spent fuel at reactors for many decades to come.
    So we believe, in principle, it can be managed safely and 
securely at reactor sites, but the NRC has failed to take steps 
needed to remediate a very dangerous situation that exposes 
millions of Americans to needless risk, and that is the 
potential for fires and dangerously overloaded spent fuel 
pools. An earthquake or terrorist attack could cause a pool to 
lose its cooling water, releasing a large fraction of 
radioactive contents into the environment. The impact on the 
American economy would be profound, more than likely far worse 
than the estimated 200 billion damages caused by the much 
smaller release of radioactivity from the Fukushima Daiichi 
accident.
    These consequences could be greatly reduced if nuclear 
plants transferred more of their older spent fuel to dry 
storage casks onsite, but the NRC has refused plans to do so 
insisting that the current risk is tolerable, and the industry 
will not voluntarily spend the money to do so if they are not 
forced to do so. So we urge Congress, as part of any nuclear 
waste management reform package, to address this risk either by 
requiring or creating strong incentives for plants to move more 
of their spent fuel to dry cast storage, and this requirement 
would also add good jobs in the dry cast storage construction 
industry.
    The risk does not go down to zero even after the fuel has 
moved to dry casks. They have to be protected adequately from 
sabotage. And I would note that the NRC has suspended a 
rulemaking which would address additional vulnerabilities for 
sabotage of dry casks either in transit or in storage that need 
to be addressed.
    With regard to consolidated interim storage, we do believe 
that a strong linkage needs to remain between licensing a 
repository and allowing consolidated interim storage to go 
forward because of the potential for derailing the momentum for 
geological repository. So we note that the discussion draft in 
allowing the DOE to move forward, even if NRC says no to Yucca 
Mountain, would be the wrong outcome and that there would be no 
other alternatives. So we believe we need to start looking for 
new geological disposal sites, and the time is to start looking 
for them now.
    And I am already going over, so I will just conclude.
    We think the U.S. can afford to allow the NRC to take its 
time in reviewing the safety of Yucca Mountain and to locate 
and characterize other possible repository sites provided that 
plants thin out their high-density spent fuel pools and other 
necessary upgrades are carried out. So there is no urgent need 
to rush forward with a less than optimal solution for the long 
term.
    Thank you for your attention, and I would be happy to 
answer your questions.
    [The prepared statement of Dr. Lyman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    The Chair now turns to Mr. Steven Nesbit, chairman of the 
Backend Working Group at the Nuclear Infrastructure Council.
    You are recognized for 5 minutes. Welcome.

                 STATEMENT OF STEVEN P. NESBIT

    Mr. Nesbit. Good morning. On behalf of the United States 
Nuclear Infrastructure Council, I thank you for the opportunity 
to appear and offer testimony on the Nuclear Waste Policy 
Amendments Act of 2017.
    I appear before you today discouraged by the country's lack 
of accomplishments in the area of used fuel management over the 
past three-and-a-half decades but encouraged by the opportunity 
to make real and lasting progress over the coming months and 
years.
    Let me start by emphasizing the urgent need to successfully 
manage the back end of the nuclear fuel cycle in this country. 
The used fuel impasse is costing U.S. taxpayers billions of 
dollars. In addition to the mounting costs, failure to bring 
closure to the back end of the nuclear fuel cycle adversely 
impacts nuclear energy as a vital component for reliable, 
affordable, and clean electricity and energy independence, 
jobs, exports, and competitors.
    Speaking from the standpoint of my employer, Duke Energy 
Corporation, nuclear power has been a remarkable success story 
for our customers in North Carolina and South Carolina. Duke 
Energy operates 11 nuclear power reactors in these two States, 
and these nuclear plants generate about half of the electricity 
the company provides to its Carolinas' customers reliably, 
economically, and with minimal environmental impacts. Used fuel 
management, however, continues to be a costly and time-
consuming burden for Duke Energy and other utilities, as 
described in more detail in my written remarks.
    While nuclear power plants store used fuel safely and 
securely, extensive onsite storage of used fuel is a 
distraction from the plant's primary mission of producing 
electricity, and it has cost U.S. taxpayers billions of dollars 
to date with tens of billions to follow. There is an imperative 
need for action.
    In a recent issue brief--it is attached to my testimony--
the United States Nuclear Infrastructure Council made six 
recommendations on how to break the used fuel logjam. In 
particular, USNIC believes the Government should carry out its 
mandate under the Nuclear Waste Policy Act and complete the 
initial licensing process for geological repository at Yucca 
Mountain.
    Yucca Mountain is located in a remote arid region of the 
country on federally owned land, and its suitability for 
disposal of used fuel has been confirmed by decades of 
scientific study involving the Nation's national laboratories 
and most recently a favorable safety evaluation by the Nuclear 
Regulatory Commission. It is time to follow the law and 
complete the regulatory review of Yucca Mountain.
    USNIC applauds the Nuclear Waste Policy Amendments Act of 
2017 as a significant positive step toward a more effective and 
sustainable used fuel management program for the country. Let 
me highlight some key points.
    The discussion draft provides for necessary Federal actions 
to support completion of the licensing process at Yucca 
Mountain. It encourages a dialogue with the State of Nevada and 
its citizens about impact assistance and benefits that might be 
made available in return for hosting a geological repository. 
It provides a legal framework for a consolidated interim 
storage program for used nuclear fuel. It addresses funding, 
perhaps the most challenging aspect of this issue facing the 
Federal Government.
    The draft legislation establishes a framework for accessing 
the existing balance in the waste fund as well as preserving 
future receipts, if any, for the purpose for which they were 
collected.
    Finally, the discussion draft reestablishes and strengthens 
the Office of Civilian Radioactive Waste Management, or OCRWM, 
within the Department of Energy as the entity responsible for 
fulfilling the Government's obligations related to used fuel 
management. Of course, simply reestablishing OCRWM requires no 
authorizing legislation. And I would be remiss if I did not 
point out that DOE should act immediately to do so.
    In addition, Congress should appropriate funding to DOE and 
the NRC to restart the Yucca Mountain licensing process, 
another action already authorized by Federal law.
    In closing, I want to reiterate my thanks to your 
subcommittee for considering this important issue, and in 
particular, to Chairman Shimkus for his unswerving advocacy for 
an effective Federal program to manage used fuel and high-level 
waste in a manner that is consistent with Federal law. It has 
been said many times that used fuel disposal is a political 
problem, not a technical one. Nevertheless, it is an issue that 
must be addressed, and the nuclear industry which has 
consistently fulfilled its obligations under the Nuclear Waste 
Policy Act stands ready to work with the Government to do so.
    I look forward to answering your questions.
    [The prepared statement of Mr. Nesbit follows:]
    [[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman returns the balance of his time.
    The Chair now recognizes Mr. Mark McManus, the general 
president of the United Association of Plumbers, Pipefitters, 
Welders, and Service Techs of the United States and Canada.
    Sir, you are recognized for 5 minutes. Thanks for being 
here.

                   STATEMENT OF MARK MCMANUS

    Mr. McManus. Good morning. Chairman Shmikus and Ranking 
Member Tonko and members----
    Mr. Shimkus. Let's do that again. Shimkus.
    Mr. McManus [continuing]. Shimkus and Ranking Member 
Tonko--not Tomko--Tonko and members of the Subcommittee on the 
Environment. Thank you. Thank you for your invitation to appear 
before the committee today to discuss the state of the nuclear 
energy industry and the economic impacts to our country.
    My name is Mark McManus, and I serve as general president 
of the United Association of Union Plumbers, Pipefitters, 
Welders, and Service Techs. We represent 340,000 of the hardest 
working, highly trained men and women in the piping industry. 
When it comes to nuclear power, our members are at the 
forefront ensuring we deliver safe, clean energy to consumers. 
However, the nuclear industry is in dire crossroads in America. 
To remain viable, we must recognize nuclear energy as a key 
component to our energy future and be actively committed to its 
overall success.
    This hearing could not have come at a more important time. 
With many recently announced closures and other plants on life 
support, the time to act is now. As the best method of 
generating electricity without producing greenhouse gases, 
expanding nuclear power must be a top priority. In fact, most 
scientists agree that the world cannot sufficiently battle 
climate change without serious commitment to expanding our 
nuclear fleet.
    Nuclear power currently makes up roughly 20 percent of the 
energy mix in the United States. Our current fleet, which 
stands at 99 reactors, is facing severe difficulties due to 
intense pricing pressures from natural gas. Natural gas alone, 
while less carbon intensive than coal, is simply not enough to 
meet our overall reduction goals. To be successful, it is 
critical that we not only keep our current fleet of nuclear 
reactors open, but we also expand the nuclear power industry in 
the United States.
    Consider the following: One, nuclear power produces 70 
percent of our carbon-free electricity today. In contrast, wind 
and solar produce only 2 percent of the electricity and only 6 
percent of our carbon-free electricity. Nuclear energy also 
produces none of the air pollution that comes from burning 
fossil fuels.
    Two, American nuclear reactors operate all day, all night, 
every hour on the hour, making nuclear a most reliable source 
of electricity. Renewable energy is intermittent with power 
available only when the wind blows or the sun shines, which is 
only about a third of the time.
    Three, according to the National Academy of Sciences, 
nuclear energy can produce electricity at or below the cost of 
wind, solar, or coal with carbon capture. Renewable sources may 
seem cost effective, but only because they are subsidized with 
billions in Government subsidies. At the current rates, the 
Government and taxpayers would have to pay 170 billion to 
subsidies for the 186,000 wind turbines necessary to equal the 
outfit of 100 nuclear reactors.
    Nuclear power is also vitally important to the American 
economy and job creation. The vast majority of nuclear reactors 
generating carbon-free power in the United States have been 
successfully maintained by the United Association members and 
our union contractors.
    Each nuclear facility in our country employs 400 to 700 
workers per 1,000 megawatts of power capacity. A new reactor 
like AP1000 currently under construction in Georgia will employ 
thousands of our members for nearly a decade. When construction 
is complete, our members will handle the refueling and 
maintenance of these plants for 60 to 80 years. This is truly a 
long-term employment.
    The same can also be said for the next generation of 
reactors. Small modular reactors, SMRs, are in various stage of 
developments. As it stands now, the first SMR that will be 
deployed in the United States is a reactor being built by 
NuScale for the Utah municipal authority on the Idaho National 
Lab site. This project includes the installation of over 
150,000 linear feet of piping, 2,500 pieces of equipment, and 
4,500 valves. These numbers represent thousands upon thousands 
of man-hours for our members. This offers them the opportunity 
to provide for their families and sustain the middle-class life 
they worked so hard to have.
    The economic benefits reach beyond the project construction 
and maintenance. Consider the tax revenue generated for the 
local schools, hospitals, and impact on local businesses that 
rely on the workers and their families' patronage. These 
projects create valuable communities for our citizens.
    When a nuclear plant closes, it jeopardizes the ancillary 
jobs and the economies that support the plant. Communities that 
are left devastated are much like when we saw the auto 
manufacturing plants close. The nuclear industry needs your 
assistance. It is no secret that the Westinghouse bankruptcy 
has cast a cloud over the future of nuclear power in the United 
States.
    Over the next month or two, we hope to have a clearer 
picture on the long-term ramifications. But even before the 
Westinghouse situation, the United States was rapidly losing 
ground to countries like China and India who are outpacing us 
on development. As is happening with infrastructure in our 
country in general, we are falling behind others civilized 
countries. We must do more to become a world leader in this 
industry.
    Hearing all this makes nuclear energy sound like a no-
brainer. So why are we falling behind? Why won't we push 
forward? Why? Because despite of the environmental benefits and 
job creations, we see reactors closing. Short answer is 
politics and public misperception.
    Yucca Mountain is a prime example. It has been 30 years 
since Congress designated Nevada's Yucca Mountain as a secure 
site for our Nation's nuclear wastewater. Since then, $11 
billion later, Yucca Mountain sits empty. Yucca Mountain is in 
a remote section of Mojave Desert and the secure storage 
facility is located 1,000 feet underground.
    A case study released by the NRC in 2014 concluded that the 
design met all the agency's requirements. They stated the 
proposed repository and design will be capable of safely 
isolating used nuclear fuel to the higher radioactivity waste 
for 1-million-year period specified in the regulations.
    There are currently 79,000 tons of existing nuclear waste 
in America right now. It is stored in smaller facilities 
scattered across the country. These facilities are much less 
secure and much more less permanent than the long-term solution 
of Yucca Mountain. Each one of these smaller sites, 34 in all, 
require constant maintenance and vigilance from safety to 
security.
    Mr. Shimkus. You have to wrap it up pretty quickly.
    Mr. McManus. In conclusion, Mr. Chairman, United 
Association--I believe the Nuclear Waste Policy Act of 2017 
offers a great first step in revitalizing the nuclear energy 
and putting people back to work.
    On behalf of the United Association, I apologize for going 
over my time. Thank you for hearing me.
    [The prepared statement of Mr. McManus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman's time has expired. Thank you 
for your testimony.
    I want to thank you all for your testimony. And I will move 
to the question-and-answer portion of the hearing and recognize 
myself for 5 minutes.
    First of all, Ward, I want to thank you for coming. I know 
you are retiring May 4th. I know you jumped through hoops to 
make sure you were here. I personally appreciate it. Again, 
thank you for your service.
    Let me turn to you, Mr. Sproat. During your tenure as the 
director of DOE's Yucca Mountain office, you oversaw the 
development of a project scheduled for, and I quote, ``Best 
case scenario to get the repository open and operational.'' In 
2006, you testified before Congress that certain provisions 
included in this discussion draft were critical to moving 
forward expeditiously.
    Will you please--I know you mentioned this in your opening 
statement--will you please clarify which of these provisions 
are the most critical to successfully move forward with the 
repository?
    Mr. Sproat. I would say, Mr. Chairman, the very first or 
top priority is about getting the issues associated with the 
nuclear waste fund fixed. You are talking about a major capital 
project that will stretch over decades. And anybody who has 
been involved in running a major capital project, whether it is 
building a repository, building a power plant, knows that the 
first thing you need is to be able to hold somebody accountable 
for the costs and schedule that is needed to deliver that 
project is a source of funding that is predictable so that you 
can actually plan the project to meet that source of funding.
    So getting the issue around the nuclear waste fund and the 
mismatch between the mandatory receipts and discretionary 
appropriations, I would say, is probably the top priority. 
Because without getting that fixed--when I went back and looked 
at some of my older testimony in front of the Senate Budget 
Committee about what we anticipated we would need during peak 
construction of the repository, it was between 1\1/2\ to 2\1/4\ 
billion dollars a year during that peak construction period 
where we are buying canisters and building a repository. And at 
$750 million a year of receipts in the nuclear waste fund when 
the Government was collecting those receipts, that had to be 
made up out of the nuclear waste fund. So I would say that 
would be number one.
    Mr. Shimkus. I appreciate that. And just going off script, 
so we are talking about a big infrastructure plan for the 
country, and the President has mentioned $1 trillion. Well, 
this could be 100 billion over 100 years.
    Mr. McManus, that would probably employ a lot of your 
members, don't you think?
    Mr. McManus. I do think so, and I think it is much needed, 
sir.
    Mr. Shimkus. Thank you.
    Again, back to Mr. Sproat. Section 503 of the discussion 
draft would make certain portions--and this is kind of what you 
were talking about--the balance of the corpus of the nuclear 
waste fund available for DOE if the Department reaches certain 
milestones over the course of the 120-year construction, 
operation, decommissioning, and postdecommissioning monitoring 
phases.
    Mr. O'Donnell, how would this approach benefit your 
ratepayers?
    Mr. O'Donnell. Thank you for the question, Mr. Chairman. 
Clearly, it will give confidence and continuity to the program. 
In other words, it won't be up to the whims of when these funds 
will be available. But it will give the Secretary the 
discretion and the program the confidence that it is going to 
be funded going forward. And I think that is essential to the 
central component from NARUC's perspective on this draft 
legislation.
    Mr. Shimkus. And we haven't seen, historically, how 
political whims have derailed projects before, have we?
    Mr. O'Donnell. I know that is a rhetorical question, Mr. 
Chairman.
    Mr. Shimkus. Thank you.
    Mr. Sproat, how would this provision assist with DOE's 
ability to properly plan and budget for certain milestones for 
a multigenerational capital infrastructure project?
    Mr. Sproat. I don't profess to fully understand the intent 
of the wording, but I will say that in terms of maybe some of 
the implications of trying to implement it, the very first 
thing it would be is reestablishing the revenue coming in from 
utilities. And one of the things I would like to point out to 
the committee is that when we we, the Department, looked at the 
adequacy of the nuclear waste fund the last year I was there in 
2008, we concluded that the nuclear waste fund corpus and its 
earnings through interest would be adequate to build and 
operate the repository. It would not be adequate to build and 
operate the repository and interim storage assuming even at 
that point in time that the Department had full access to the 
corpus and the revenue coming into the fund. So it is one thing 
for the committee to consider in terms of adequacy of the fund 
going forward.
    Mr. Shimkus. I am going to sneak one more in, and I am 
going to shorten it.
    In 2007, the Department of Energy submitted a legislative 
proposal that intended to clarify whether RCRA applied to the 
disposal material on Yucca Mountain. Why is this clarification 
necessary?
    Mr. Sproat. The reason that clarification is necessary is 
that--and by the way, I am no expert on RCRA--but, however, in 
talking with Department attorneys and some of my experiences 
post employment with the Department, EPA has basically 
delegated an amount of regulation to the States, I think 
appropriately so, for regulating what gets buried and how 
various materials are disposed of in their State. In this case, 
the RCRA would allow the State of Nevada to regulate the burial 
of material at the site. And, for example, the waste canisters 
and the waste packages that are evaluated as part of the NRC 
license application where they have determined there is 
adequacy to meet the design of their repository, the State 
could make a determination that those materials won't be 
allowed to be buried in their State.
    So that issue of RCRA and the State ability to regulate 
various aspects of the buried material and the operation of the 
repository is something, I think, at least needs to be 
recognized and addressed appropriately.
    Mr. Shimkus. Thank you very much. And RCRA, for the laymen, 
is Resource Conservation Recovery Act. I don't like to use 
acronyms, but I tried to be quick.
    So the Chair now recognizes the ranking member of the 
subcommittee, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    It is my understanding that there are over 200 contentions 
with the Yucca license application. Does anyone on our panel 
have an estimate on how long or expensive it will be to resolve 
these issues? Are we talking years? What kind of dollar 
amounts?
    Mr. Sproat. Mr. Tonko, based on my experience in the 
commercial nuclear sector where I was involved with licensing 
one of our nuclear power plants back in the 1980s where we had, 
I think, probably--I forget the exact number--it was maybe 
about 16, 17 contentions, and that litigation in front of the 
Atomic Safety and Licensing Board took a little over a year.
    It is not beyond the realm of possibility that with these 
number of contentions--and the licensing board has the ability 
to combine those contentions together. They don't need 
necessarily to be litigated each one individually, but I would 
expect--and I think in my written testimony I said two to 
three. It could be as many as four, depending on how that--
because not only does the Atomic Safety and Licensing Board 
make an initial determination, there is an appeals board also 
if any of the parties want to appeal that before it goes to the 
Commission.
    Mr. Tonko. Thank you.
    Anyone else? Dr. Lyman?
    Dr. Lyman. Sorry. Yes. I was involved in a few NRC 
adjudications, and there was one that took 10 years to resolve 
two contentions. I just thought I would put that in.
    Mr. Tonko. Thank you.
    Mr. O'Donnell?
    Mr. O'Donnell. Thank you, Ranking Member Tonko. I think it 
is also important to note at this juncture that there is a cost 
that needs to be factored in of inaction. And the cost of 
inaction comes in from the judgment fund payments. About $800 
million a year coming out of the judgment fund payments. Up to 
this point, DOE has already paid $6.1 billion in damages, and 
that is the cost of inactivity. So the cost of inaction is very 
tremendous, about $2\1/2\ million a day, and that is important 
to note.
    Mr. Tonko. Thank you.
    Mr. Nesbit, did you want to say something?
    Mr. Nesbit. Mr. Tonko, I would like to agree with Mr. 
Sproat. And I would add that several years to resolve this 
number of contentions I don't think is unreasonable. I don't 
think you should expect that any repository anywhere would not 
have contentions. So it is not like going somewhere else would 
save the time.
    Moreover, we need to reestablish the infrastructure at the 
Department of Energy to be, as Mr. Sproat puts it, a willing 
applicant. And that is why I strongly recommend that we 
immediately reestablish the Office of Civilian Radioactive 
Waste Management.
    Mr. Tonko. Thank you.
    So I am hearing a number of years before construction and 
then transportation can even begin. And that may not fully take 
into account, I would believe, the State of Nevada's continued 
opposition, potential litigation, and appropriations issues 
here in Congress.
    So with that, Dr. Lyman, given the timeframe to construct 
the long-term repository, waste will continue to accumulate at 
given sites. Should more be done to enhance safety at spent 
fuel pools?
    Dr. Lyman. Yes. Thanks for the question. As I said in my 
written testimony, we don't think that the NRC is doing enough 
to assure the safety and security of spent fuel at reactor 
sites and also at consolidated interim storage sites, should 
they be built.
    One issue I raised was the potential for a spent fuel pool 
fire, which is a result of the dense packed storage policy at 
U.S. plants which, in part, is a legacy of the failure to go 
forward with a U.S. plan to take title and take spent fuel away 
from sites, but nonetheless, does not require that option to be 
mitigated, because you can expedite a transfer by taking most 
of the inventory of fuel out of the spent fuel pools, you can 
greatly reduce the risk of the spent fuel pool fire. And so 
that is one issue that I raised.
    And there is no question that spent fuel will be onsite for 
many decades, especially since some reactors may be getting 
license extensions for up to 80 years. And as long as they 
operate, they are going to need onsite spent fuel storage.
    Mr. Tonko. Well, with its given powers, can NRC require 
greater safety procedures, or is it something that Congress 
should consider legislating?
    Dr. Lyman. Well, NRC to date has not--they have considered 
these issues and not taken any action. So, really, it is up to 
Congress. At this point, until the composition of the 
Commission changes and their direction changes, there is room 
for some congressional action on this I think.
    Mr. Tonko. OK.
    Mr. Nesbit, Duke Energy has paid 2.5 billion from customers 
into the nuclear waste fund. And Duke Energy has also been paid 
out significant sums from the Federal Government. Obviously, we 
don't know the specifics, but generally speaking, given the 
option for interim storage, would Duke Energy or utilities in 
similar situations consider it a potential alternative while 
the Government continues to work on a long-term solution?
    Mr. Nesbit. We support consolidated interim storage. We 
think that the country should move forward with that, and 
particularly focusing on fuel that is currently stored at 
shutdown plants. Because those plants do not have the--if it 
were not for the used fuel onsite, they wouldn't have to 
maintain the infrastructure in terms of security, safety, 
emergency planning, radiation protection, et cetera.
    Mr. Tonko. Thank you. I yield back. In fact, I have 
exhausted my time, so----
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes Congressman Joe Barton, former 
full committee chairman, for 5 minutes.
    Mr. Barton. And I have handed both my phones to my staff so 
I won't be interrupted.
    Mr. Shimkus. Good job.
    Mr. Barton. It was her suggestion, so I have to give her 
the credit.
    Mr. Sproat, what would happen, in your opinion, if we were 
to reopen--and I am not advocating this--but if we were to 
reopen the site selection process for a permanent repository? 
Would we have a different outcome?
    Mr. Sproat. Mr. Barton, that is a very good question. I 
will just tell you, my own personal opinion is the answer to 
your question is no, we won't. If you go back and take a look 
at the history--and, by the way, the staff put together a very 
good history on the Nuclear Waste Policy Act and its evolution 
and the activities that followed attached to the hearing 
notice. And we have attempted at least once, I think twice, 
going to various States and looking for a willing host 
community. We went to I think it was 31 or 32 Governors that 
turned us down back in the 1970s or early 1980s, and then we 
had the nuclear waste negotiator whose job it was to negotiate 
a willing site, and they failed also.
    My personal opinion, based on what happened about that 
history as well as what happened with privatized spent fuel 
storage, was that you could have a willing host community. Nye 
County in Nevada have said they want the repository. However, 
the surrounding units of Government and the surrounding States, 
because any place we are going to place a site, material is 
going to be transported through those local government 
jurisdictions will have a say. And quite frankly, I think the 
political opposition will occur if not in the host community, 
in the surrounding host communities and the transportation 
routes no matter where we put it.
    Mr. Barton. So it is really not feasible, in your opinion, 
to reopen the permanent site selection process? Personal 
opinion.
    Mr. Sproat. Unless the Commission rules that the Yucca 
Mountain site cannot be licensed under the current regulatory 
regime, then we have to do something else.
    Mr. Barton. The staff brief--the majority staff brief for 
this hearing says that the Yucca Mountain site has passed all 
technical and safety reviews and has been found safe to store 
high-level nuclear waste for a million years. Is that correct?
    Mr. Sproat. That is correct.
    Mr. Barton. What is the half-life of high-level nuclear 
waste, radioactive half-life?
    Mr. Sproat. Depending on--why don't you ask Dr. Lyman that 
question? No. Depending on the radionuclides we are talking 
about, it varies quite a bit. But if you went and took a look 
at the license application and some summaries of it, you will 
see a distribution of what the projected radioactive releases 
from the repository are out to a million years. And as I think 
Chairman Shimkus talked about at the very beginning, it was 
less exposure than a cross-country airline flight.
    Mr. Barton. Well, a million years puts it beyond my tenure 
in this Congress. I mean, we are----
    Mr. Shimkus. We can only hope.
    Mr. Barton. Love that love you just gave me, Mr. Chairman.
    I am going to ask Mr. O'Donnell this question: How many 
sites do you think will vie for the temporary repository if 
this bill becomes law? How many States?
    Mr. O'Donnell. I appreciate that, Mr. Chairman, Congressman 
Barton. I really don't know. It would be hard for me to 
anticipate how many States might. I know that there are States 
that have interests. We have seen that. So----
    Mr. Barton. One is my State.
    Mr. O'Donnell. Of course. And there is your neighboring 
State as well, in New Mexico, I believe. So there is some 
interest out there, but it is hard for me to predict how many 
others may decide it is in their interest moving forward.
    Mr. Barton. Is your association supportive of this pending 
legislation that requires, for the temporary repositories, that 
the States have to affirm that they will accept it?
    Mr. McManus. We believe that those provisions for the 
temporary facilities are good. And we also believe that forward 
progress on any other opportunities to go forward are 
contingent on the licensing decision at the NRC, and NARUC 
believes it is very, very important.
    Mr. Barton. Mr. Chairman, I appreciate your courtesy. I 
yield back the balance of my time.
    Mr. Shimkus. The Chair recognizes the gentleman from 
California, Mr. Peters, for 5 minutes.
    Mr. Peters. Thank you very much, Mr. Chairman. I appreciate 
the topic coming up in the subcommittee today.
    It is interesting to hear that representatives from Nevada 
testify, obviously, nuclear fuel, what we do with it affects a 
lot of congressional districts around the country. Just on the 
edge of San Diego County is the San Onofre Nuclear Generating 
Station, one of the more recently shutdown locations. We have 
about 3.6 million pounds of spent fuel in need of safe storage. 
I think my constituents assert, and I agree, that the current 
property is not optimal. I also understand that our options to 
move it are limited.
    I know that one of the ways to improve the situation is 
with the preferred location interim storage that allows us to 
consolidate some of the onsite storage. Seventy-eight sites in 
34 States with spent fuel waiting, many in substandard storage 
with a number of--growing number of nuclear facilities shutting 
down. Since 2012, nuclear plant owners have closed or announced 
the closure of 14 facilities, that includes San Onofre, which 
hasn't produced electricity since 2012.
    So moving spent fuel from these sites, especially shutdown 
sites, is not a new idea, but obviously in need of some new 
momentum, probably. So I had a couple of questions. And maybe, 
Mr. Sproat, jumping ahead to when Yucca Mountain would be open, 
say. There is obviously a capacity issue already with it. There 
is probably not enough space in Yucca Mountain to deal with a 
lot of the waste that we are dealing--we are talking about 
moving. How would you prioritize what gets put in? A number of 
factors you might look at to weigh areas with the most fuel, 
largest concentration of people in the surrounding region, most 
dangerous environmental hazards, facilities that have already 
shut down, have been waiting the longest, nature of the field. 
How would you decide what gets in and what doesn't?
    Mr. Sproat. Mr. Peters, actually, within--and my memory 
here is a little vague. I can't remember whether it is in the 
Nuclear Waste Policy Act or whether it is in the implementing 
regulations in the Department of Energy, but there is something 
called the queue. And it has been in the law from the very 
beginning, which is oldest fuel gets moved first.
    Mr. Peters. OK.
    Mr. Sproat. And when the liability of the Federal 
Government for not complying with the spent fuel removal 
contracts that all the utilities signed, that contract required 
the beginning of moving of that fuel in 1998 from the oldest 
plants first. The courts have held that the liabilities that 
the Government has is based on when that fuel should have moved 
based on the plant spot in the queue.
    Mr. Peters. OK.
    Mr. Sproat. So, in terms of the format and the regulations, 
I guess I would say, regarding what gets moved first, that has 
already been determined in terms of oldest fuel first. So San 
Onofre 1 would be very high in that queue, for example.
    Second point I would just like to make about the capacity 
of the repository. The Nuclear Waste Policy Act set a limit of 
72,000 metric tons heavy metal for that repository. But when 
the Department did the environmental impact statement, we 
evaluated a higher level, and my notes said it was 120,000 
metric tons. So the license application is submitted based on 
what the law currently says is the legal limit. However, in 
terms of the EIS, the environmental impact statement, we 
evaluated 120,000 metric tons, ,which showed we could take more 
if that was permitted by law.
    Mr. Peters. Thanks for your help.
    I had another question that no one is raising. Maybe a 
little out of my comfort zone here, but I understand that the 
next generation nuclear we have talked about a little bit 
purports to be more effective at spending more of the fuel, 
leaving less residual behind to dispose of. Is there any chance 
that the material we are talking about disposing of today would 
be useful in that next generation process?
    Mr. Sproat. There is--it is very interesting. That topic 
keeps coming up over and over again over the past couple of 
decades about taking the spent nuclear fuel and reprocessing it 
and generating more fuel. I will tell you my personal opinion 
based on what I know.
    Number one, it doesn't make economic sense. The business 
case for doing that doesn't exist. It is very expensive. And, 
number two, the older fuel at this stage in the game probably 
doesn't have enough residual energy in it to make it worthwhile 
anyway. So, while it is--I would believe--I think a number of 
people would say it is scientifically and engineering possible 
to do that, I don't think it makes any economic sense.
    Mr. Peters. When you say it doesn't make economic sense, 
are you comparing it to the use of new fuel? I understand that. 
But are you considering the costs that we are incurring to get 
rid of it? Is that part of the calculus?
    Mr. Sproat. Yes, it is. Because even if you were to follow 
the reprocessing process and reprocess some of that fuel, you 
still have, in some cases, some high level but a lot of medium 
level of radioactive waste left over that has to be disposed 
of. So it doesn't all disappear.
    Mr. Peters. Right. OK.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Shimkus. Thank you.
    The Chair now recognizes my vice chairman, Mr. McKinley, 
from West Virginia, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. Maybe you can follow 
up back on that line of questioning. I visited the recycling 
facility in La Hague in France, and they told us there that the 
cost of the recycling was very expensive and would require 
substantial subsidization if we were to--if we were to embark 
on that. It is costing the French Government quite a bit of 
money to do that. But I know the technology there is very, very 
expensive to do that. So thank you for that.
    But I also just want to congratulate our chairman on this. 
I am a Scotch Irishman. We are pretty stubborn on some things. 
But I thought this guy is even more stubborn than I am because 
he has endured this for the last 6 years that I have been in 
Congress, pressure. He has wanted to talk about this. He has 
wanted to be able to move this and advance this ball down the 
pike, but because of the previous administration we weren't 
able to do it. And I admire the chairman for his not blinking. 
Because if nothing else, he has been able to educate a whole 
new group of Congressmen that have come in in the last 6 years 
to understand the merits of this program. So I really do admire 
him for being able to do that. Because, you know, we know, 
facts are stubborn things, and I think we are going to follow 
the science as we go down through this.
    So, Mr. Sproat, if I could ask a question, as you have 
just--my comment is that our country lost a substantial amount 
of time in getting this--getting the licensed decision on Yucca 
Mountain after the administration shut the program down. Some 
opponents of the Yucca Mountain project suggested it will be 
too time consuming or costly to resume this licensing process. 
Do you agree with that? Based on your experience, would you 
expect it to be cheaper to continue or we start all over again?
    Mr. Sproat. Well, the way I view it, Congressman, is we 
have a 35-year-plus investment in this process that the Nuclear 
Waste Policy Act laid out and specified how this whole process 
was to evolve. And we are now within 3 or 4 years of concluding 
it. And when I talk about that, I mean getting a final decision 
from the Nuclear Regulatory Commission on acceptability of the 
Yucca Mountain site and design.
    There is no way, I believe, that that is going to be more 
expensive than starting over again at this stage of the game. I 
just--I can't be convinced of that.
    Mr. McKinley. Won't we--in this process, if we advance 
this, if there are questions, isn't that the purpose of the 
licensing decision process to find out, to ferret out any issue 
that we need to address? Isn't that what this is all about?
    Mr. Sproat. It absolutely is. And the license application 
for Yucca were in three-ring binders about this wide and the 
five safety evaluation reports that the Nuclear Regulatory 
Commission staff issued where they evaluated the design is 
probably about this big. So, in terms of the amount of time and 
effort spent by some people a lot smarter than me who figured 
out and evaluated all the technical issues associated with the 
repository, that is a huge investment, and I believe is worth a 
final determination by the NRC of whether or not to move 
forward or not.
    Mr. McKinley. Just to finish it now.
    So, Mr. O'Donnell, do you believe it would be cheaper and 
quicker to complete the licensing process and follow where the 
science leads us or the issues, or do you think we should start 
all over again?
    Mr. O'Donnell. Congressman, I appreciate the question. 
Clearly, I don't think we should start over again. The 
ratepayers in this country have already made a substantial 
investment, $40 billion, for this process to continue. And as a 
commissioner and regulatory commissions across this country, 
all 50 States, the District of Columbia and the territories, 
that is what we do. We get presented with an application. We 
take a look at that application and allow it to have the due 
process and make that decision on the merits of that case. That 
is what we do day in and day out. That is how our system works. 
And yet in this particular process where the ratepayers have 
paid $40 billion, that due process is being denied because the 
application is not allowed to go forward through a merit-based 
evaluation, and that should stop. We should not restart this 
process. Thank you.
    Mr. McKinley. Thank you.
    Mr. Nesbit, the same question to you. Your thoughts?
    Mr. Nesbit. I do not think there is any way it would be 
quicker, faster, and cheaper to start over and start looking 
around for another site. Not on this planet, sir.
    Mr. McKinley. OK. I am just thinking from a common sense 
thing, finish the job, find out what the facts are. The facts 
will lead us to the final decision. And I don't think we should 
be intimidated, and I hope we stay with the science rather than 
let politics come into play. Let the science lead us, get the 
decisions, and then we can make a decision. If it leads 
properly, that is fine.
    Thank you. I yield back my time.
    Mr. Shimkus. Spoken like a true engineer. So thank you. The 
gentleman yields back his time.
    The Chair now recognizes the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. And thank you and the 
ranking member for holding this hearing.
    I have had the opportunity over a number of years ago to go 
with the Chair to Yucca Mountain. I also, last fall, went and 
visited our South Texas nuclear plant that--we have two nuclear 
plants in Texas, and interim storage is sitting there on those 
properties.
    Decisions were made in the 1980s that none of us ever were 
a part of. But like my colleague from West Virginia, somewhere 
along the way we have to do something. And I know in Texas we 
already have an interim storage--potential facility for interim 
storage in West Texas. So that is the frustration that we have, 
that, you know, we have this 72,000 metric tons of spent 
nuclear energy held at plants both active and retired across 
the country today.
    Mr. Nesbit, does the U.S. Nuclear Infrastructure Council 
support the development of interim storage facility?
    Mr. Nesbit. Yes, we do. We think that interim storage is a 
component of an integrated used fuel management program for the 
country that could be very beneficial. However, we think the 
primary focus of that program needs to be on a geologic 
repository for ultimate disposal of the material.
    Mr. Green. Well--and I don't disagree, because the bill 
would actually prohibit going forward on interim storage, I 
understand, without some decision on the permanent storage. But 
somewhere along the road, we have to have both. You can't ride 
a bicycle--well, I guess you could ride a bicycle with one 
wheel, but we need to have both of them.
    What are the advantages of opening interim storage 
facilities provide?
    Mr. Nesbit. I am sorry, sir?
    Mr. Green. What is the advantage of opening an interim 
facility?
    Mr. Nesbit. I think the primary advantage would be to allow 
the consolidation of used fuel from shutdown plants, and I am 
referring to those sites around the country where the reactor 
is shut down and no longer producing power. And in many cases, 
there is nothing there except a dry storage facility for used 
fuel. It really doesn't make sense to maintain safety, 
environmental, radiation protection infrastructure at these 
scattered sites around the country. We do it, we can do it 
safely. But it really makes sense to consolidate the material 
in one place so we can maintain it there a lot more cheaply. 
And I think the ongoing cost to the U.S. taxpayer would be much 
lower.
    Mr. Green. And I agree that opening an interim facility 
should not preempt the completion of the licensing of an 
underground permit repository. An interim facility cannot 
become the de facto permanent repository like the sites are 
now, as you said.
    Do you believe that the licensing and opening of an interim 
facility can be contingent on licensing of Yucca Mountain?
    Mr. Nesbit. That is a decision for the Congress when it 
authorizes the legislation. I would like, personally, to see--I 
think we can walk and chew gum at the same time, sir.
    Mr. Green. OK.
    Mr. McManus, I want to welcome you to the panel. Coming 
from Houston, I obviously have both the pipefitters and the 
plumbers local. But when I visited the nuclear power plant in 
South Texas, it was mostly IBEW members. I assume there were 
plumbers and pipefitters on the site in almost all of the 
nuclear power plants.
    Mr. McManus. Yes, I think we have jurisdiction on about 90 
percent of the nuclear power plants in the United States.
    Mr. Green. OK. About how many members of the plumbers, 
pipefitters or the UA work in the nuclear industry?
    Mr. McManus. It varies from outage to outage. We have 
340,000 members. About 60 percent of our man-hours are on the 
energy sector in the country, and they break out the nuclear 
industry per power plant, 400 permanent, 500 permanent jobs on 
average from there.
    Mr. Green. And those are permanent jobs at the power 
plants?
    Mr. McManus. Permanent jobs. New construction of a nuclear 
power house would probably peak out at about 2,500 to 3,000 
members on the construction of new nuclear power plant.
    Mr. Green. And the average wage at those plants for----
    Mr. McManus. Well, it certainly varies from South Texas to 
northern, central California to New England. I would say the 
average wage would be $60 an hour, everything in.
    Mr. Green. OK. I know our committee also has jurisdiction 
over pipelines. And we had some issues about there were 
temporary jobs to build pipelines. These are not temporary 
jobs?
    Mr. McManus. Temporary jobs built the Golden Gate Bridge 
and the Empire State Building. And where we are sitting here 
today, sir, it built every hospital. Our members are proud to 
work on temporary jobs. We take it as a badge of honor. We move 
from one job to another job. So the issue of temporary jobs is 
something I am passionate about, my membership is passionate 
about. Temporary jobs built this country, sir.
    Mr. Green. I agree. And, of course, after they finish one 
pipeline, they can go to another pipeline.
    Mr. McManus. Absolutely.
    Mr. Green. I yield back my time.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Murphy, for 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman. I am glad my friend, 
Mr. Green of Texas, pointed out--by the way, we are also temp 
employees. We are just on a 2-year contract, some more than 
others. Some more temporary than others is what it comes down 
to.
    Anyway, thanks for being here. First of all, Mr. McManus, I 
want to thank you for being here. I have got Local 27 in 
Pittsburgh, some just great men and women who work there, and I 
am proud to know many of them.
    I want to talk about some of the aspects here if we don't 
build nuclear power as well. Of course, we also have 
Westinghouse in Pittsburgh, which has its own problems right 
now. But nonetheless, we know its value.
    And what I want to talk about here is the economic impact 
of employment tax revenue, another aspect of maintaining and 
building power plants. I mean, a recent media story said that 
the termination of Yucca Mountain project resulted in a 2,500 
job loss in Nevada, 14 million lost revenues for the host 
communities. But what is the impact upon communities then 
around the Nation, too, not only with regard to building and 
maintaining power plants, but if we are talking about dealing 
with spent nuclear fuel and preparing it and sending it around, 
do you have some ideas the impact of jobs on that are?
    Mr. McManus. I would be guessing on direct numbers there, 
but every closure of a nuclear power plant or of Yucca Mountain 
is an economic impact on not only the construction workers that 
maintain, build, and look after the places, it is everything 
that is surrounding the community as well, from the barber 
shops to the downtown communities that we all live and grown up 
in, from Pittsburgh to New England. Yankee closed up in New 
England, and it is a devastating effect to the community, every 
one of the closures.
    Mr. Murphy. I appreciate that. And also I appreciate your 
comments too with regard to the nuclear fuels 24/7. It doesn't 
rely on wind and solar as it goes on. And I want to make sure 
we are maintaining that.
    Anybody else want to comment on that economic impact of 
power plants and closures?
    Mr. Nesbit?
    Mr. Nesbit. Yes, sir. I will say that our plants are, 
basically, economic engines for their local communities. We 
provide a number of dependable, high-paying jobs. We spend a 
lot of money to run those plants. Most of the cost associated 
with running a nuclear power plant is in the people and money 
that goes back to the local communities in terms of not just 
tax dollars but businesses that support those plants and the 
workers there. So we spend hundreds of millions of dollars a 
year on O&M costs for those plants, and that money goes right 
back into the local communities.
    Mr. Murphy. Thank you. I want to ask a little more 
technical question now with some members here. Maybe Mr. 
Nesbit, Mr. O'Donnell, or someone else can answer this. Refer 
back to section 602 of the discussion draft which clarifies 
that the Office of Civilian Radioactive Waste Management is the 
sole office in the Department of Energy to carry out activities 
required by the Nuclear Waste Policy Act.
    Following President Obama's decision that Yucca Mountain 
was unworkable--and those are in his words--DOE closed that 
office and transferred all of the DOE responsibilities to the 
Office of Nuclear Energy, DOE's office that manages civilian 
nuclear energy research and development activity. So for any of 
the witnesses, do you support reconstituting this office to a 
single dedicated office to manage DOE's nuclear waste disposal 
activities, particularly in the near term while NRC's review of 
Yucca Mountain's license application is being completed? Who 
would like to comment on that?
    Mr. Sproat. If I could, Mr. Murphy, the--I would--I do 
support that. I would say having run that organization for 2\1/
2\ years, it was made up of a number of people who spent a 
significant portion of their career trying to execute the 
Nuclear Waste Policy Act and trying to move forward with 
solving the spent nuclear----
    Mr. Murphy. By ``execute'' do you mean kill or execute----
    Mr. Sproat. Actually--no. To actually enable it, I guess is 
the right word to use.
    Mr. Murphy. Thank you.
    Mr. Sproat. And a number of those people have moved on, but 
a number of those people are also still in the Department. And 
in order to successfully defend the license application and 
litigate the contentions in front of the Atomic Safety and 
Licensing Board, that needs to be one organization with one 
purpose that is not divided among different loyalties and among 
different missions. It needs to be single focused to get the 
license application approved.
    Mr. Murphy. Thank you.
    Mr. O'Donnell. Mr. Murphy, may I add something to that?
    Mr. Murphy. Yes, Mr. O'Donnell.
    Mr. O'Donnell. I think it is important to note that in my 
oral testimony and written testimony that the office was given 
a 5-year term. And NARUC is suggesting that the committee and 
the Congress may want to consider a longer term of office there 
as an insulator from the political whim so that should things 
change, we have some continuity in this very important program 
that is in the Nation's interest.
    Mr. Murphy. I appreciate that. Thank you.
    Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back the time.
    The Chair now recognizes the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Well, I thank the chairman for holding this, 
and I thank the panelists for testifying this morning.
    This is an important issue. I mean, I don't care how you 
feel about nuclear power, but we need a comprehensive Federal 
policy to deal with this issue in the long run.
    I would like all the panelists to answer with a simple yes 
or no. Would you be able to support the current draft 
legislation with only minor modifications?
    Mr. Sproat?
    Mr. Sproat. Yes.
    Mr. McNerney. Mr. O'Donnell?
    Mr. O'Donnell. That is a difficult question. I know you 
want yes or no, but we have not evaluated all----
    Mr. Shimkus. Look at your staff behind you real quick.
    Mr. O'Donnell. OK. The right answer is yes.
    Mr. McNerney. Thank you.
    Dr. Lyman. No, Mr. McNerney.
    Mr. McNerney. Thank you.
    Mr. Nesbit. Speaking personally, yes.
    Mr. McManus. Yes, sir.
    Mr. McNerney. Thank you.
    Mr. Sproat, in answer to Mr. Peters' question about the 
priority list for waste to be removed, should that list--you 
said that there is a priority list. Should that list be 
revised?
    Mr. Sproat. Again, personal opinion, I would say no. And 
the reason I say no is because that, essentially, the Federal 
Government has contractual obligations to remove spent fuel 
from the oldest plants first, and that's been in place for 
decades. And I think if we tried to modify that or change it at 
this stage in the game, that would open up another whole round 
of litigation that would be quite costly and just delay things.
    Mr. Nesbit. Mr. McNerney, could I add some clarification?
    Mr. McNerney. Sure.
    Mr. Nesbit. We have contracts as utilities. We have 
contracts with the Department of Energy for the removal of the 
used nuclear fuel from our sites, and those contracts specify 
what Mr. Sproat referred to as the waste fuel. I do not believe 
that needs to be revised. And I will point out that the 
contracts contain a provision that allows the DOE, at its own 
discretion, to go pick up fuel from shutdown plants first if it 
deems it to be necessary and appropriate. So I think the 
current contracts are adequate in that regard.
    Mr. McNerney. Thank you.
    And I thank the chairman for the extra 2 minutes you are 
giving me here.
    Mr. Shimkus. Just keep going on this line of--these 
questions.
    Mr. McNerney. Mr. Sproat, you mentioned that the water 
rights, but that was with respect to getting water to cool 
drill bits. What about the water--I mean, I am from California. 
We have a little water contingent--you know, issues. What about 
the water rights for areas that are nearby nuclear waste sites?
    Mr. Sproat. If I understand your question right, Mr. 
McNerney, this issue that I mentioned is strictly about at the 
Yucca Mountain site itself. In terms of if the Nuclear 
Regulatory Commission, from a technical standpoint, determines 
that the design of the repository is adequate, the site is 
adequate, and it gives the Department permission to build the 
repository, today, the State of Nevada, you know, can tell the 
State water engineer not to grant any water permits to the 
Federal Government to allow that repository to be built or 
operated.
    Mr. McNerney. Well, I guess I was just trying to make a 
point that we need to consider what is going to happen to water 
rights for people that draw water near repository sites.
    Mr. Lyman, you recommended gaining public support for 
storage sites. Absolutely obvious to me. How would you 
recommend--what steps would you take to get public support? And 
would that be--is there any chance or any hope of getting that 
support in the Yucca site?
    Dr. Lyman. You called my bluff. Yes. Obviously, the how is 
difficult. The Blue Ribbon Commission had a proposal. The 
Department of Energy presented one. The Nuclear Waste Technical 
Review Board have all come up with schemes by which you could 
have a process that would have a more formalized staged 
approach to getting consent.
    Now, I think probably it all comes down to benefits. And 
the question is, is everyone going to benefit who may 
potentially be at risk from this? And the answer may be a 
quantity of benefits which may be, you know, unsustainable in 
the future, but we need to do at least something for the spent 
fuel that has already been generated and then decide whether 
this is an approach that is going to work for the future.
    Mr. McNerney. So I mean, complete utter transparency has 
got to be part of it.
    Dr. Lyman. Yes. Certainly, there has to be a framework in 
place where the technical aspects of the repository are 
considered independently. So you need site-independent 
technical criteria as a prerequisite so that at least any 
community will know that the process is not being gamed to 
force something just because that is what is available. And I 
think that is the situation we have now.
    Yucca Mountain is the only site that has undergone, you 
know, enough characterization, that has gone through part of 
the licensing process, and that has a lot of momentum behind 
it, but it also has a lot of technical flaws and there are 
unresolved technical issues. And so we don't want to see that 
political pressure short circuiting the consideration of those 
technical issues. That is one thing, actually, which this 
discussion draft would seem to do in some of its provisions.
    So you need to start with the science, with technical 
criteria, and you need to have multiple candidates. To put all 
the eggs in the Yucca Mountain basket could be a problem if you 
get to the end of the process and the NRC says no, and then you 
are left with no other candidates. That is why we think there 
need to be alternatives starting now.
    Mr. Shimkus. The gentleman's time has expired, long 
expired.
    Mr. McNerney. Well, I take back my compliment for giving me 
those extra 2 minutes, Mr. Chairman.
    Mr. Shimkus. I still got a minute and a half more.
    So the Chair now recognizes the gentlelady from Tennessee, 
Mrs. Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman. And thank you all 
for your time today.
    Mr. Nesbit, I think I want to come to you and kind of pick 
up on what Mr. McNerney was talking about with transportation. 
You know, with TVA, we have loved watching and really 
appreciated the work that has gone into Watts Bar 2. And I had 
the opportunity to visit that facility just as it was finished. 
And, of course, we know that it was project number one coming 
into this century.
    But talk to me just a minute about what your assessment is 
of the situation surrounding future transportation of the spent 
fuels in the cask. I know there is concern that has been 
raised, but we look at this and say there has to be a solution. 
And so we have touched on transportation. Let's just kind of 
close that loop, if you will.
    Mr. Nesbit. Thank you very much for the question. There are 
a couple of things I would like to say. First of all, if you 
are going to solve the issue of what you ultimately do with 
nuclear waste, you have to transport the material. So simply 
being opposed to transportation of nuclear waste for some 
ephemeral reason is not grounds for opposing Yucca Mountain.
    I heard a lot of concerns expressed about transportation 
this morning. I want to point out that transportation of used 
nuclear fuel is one of the safest endeavors in the history of 
mankind, and I don't say that lightly. Used fuel is transported 
in strong, robust waste packages that are designed to withstand 
a number of things: Impact, fire, immersion. They are regulated 
by the Nuclear Regulatory Commission and by the Department of 
Transportation. There is careful planning and security involved 
with all shipments.
    From the experience of my company, Duke Energy Corporation, 
we have transported more than 5,000 used fuel assemblies 
between our sites in the 1970s through the 2000s. We 
transported----
    Mrs. Blackburn. Hold on just a minute. Reiterate that 
number again.
    Mr. Nesbit. Over 5,000 used fuel assemblies.
    Mrs. Blackburn. OK. Without incident.
    Mr. Nesbit. Without incident.
    Mrs. Blackburn. OK.
    Mr. Nesbit. We transported them across State lines. We 
transported them by rail. We transported them by truck. We did 
not have a problem doing it. And that just reflects the larger 
worldwide experience.
    There has been extensive transportation of used fuel and 
high-level waste around the world, particularly in Europe. It 
has happened for decades. No one has ever been hurt as a result 
of radiation released during transportation of this material. 
So I think it is important that we put that into context.
    We should also note that the number of transportation 
activities in any given year for Yucca Mountain is not that 
large. It is in the hundreds. It is not this great 
transportation campaign that will be taking over the entire 
country or something like that.
    But you don't have to take my word for it. There have been 
a couple of very important studies that put transportation risk 
in context. In 2006, the National Academy of Sciences did a 
report that is called ``Going the Distance: The Safe Transport 
of Spent Nuclear Fuel and High-Level Radioactive Waste in the 
United States.'' More recently, in 2016, the Oak Ridge National 
Laboratory published a report, ``A Historical Review of the 
Safe Transport of Spent Nuclear Fuel.'' Both of those showed 
that this is an endeavor that can be done safely and securely.
    Mrs. Blackburn. Thank you.
    Mr. O'Donnell, I wanted to see if you could touch on 
section 402, and the better agreements and how the 
modifications made in section 402 will incentivize stakeholders 
to better work with the Federal Government in the Yucca 
Mountain project. And then as you touch on it, talk about how 
you support those changes or do not support those changes, what 
your approach to it is.
    Mr. O'Donnell. I am trying to get to 402, so I apologize 
for that.
    Mrs. Blackburn. It is the benefits agreement.
    Mr. O'Donnell. OK. We did not take a position on that.
    Mrs. Blackburn. OK.
    Mr. O'Donnell. We didn't testify on it, and we are still 
evaluating. Because we have a short window to evaluate a lot of 
the aspects of this, we haven't evaluated that piece yet. So I 
would be glad to make sure that we get our position----
    Mrs. Blackburn. OK. Why don't you submit that to me in 
writing.
    Mr. Nesbit, I am coming back to you then. How about the 
Nuclear Infrastructure Council, do you support the provision?
    Mr. Nesbit. The U.S. Nuclear Infrastructure Council 
believes that ultimately the Yucca Mountain repository should 
be and can be a win-win for the State of Nevada, the local 
residents around the repository, the nuclear power industry, 
and the Nation as a whole. I will point out, as has been 
mentioned earlier, that the county around Yucca Mountain, Nye 
County in which the repository resides, favors the development 
of a repository there as long as it meets the regulatory 
requirements for safety and environment.
    I think that the legislation makes constructive changes to 
the benefit structure in allowing an open dialogue between the 
Federal Government, the States, and the counties, and I think 
that should facilitate that win-win that we are looking for.
    Mrs. Blackburn. I yield back.
    Mr. Shimkus. The gentlelady yields back.
    If I may, just to talk about the benefits package, what 
this really is is an effort to open the door again to the State 
of Nevada because they previously said no. So, under the 
current law, they don't get any benefits. They can't negotiate 
the benefits. So what we are doing in this language, saying 
even though you said no, we are still willing to negotiate with 
you on benefits for the State of Nevada. So just to make sure 
we clarify what that provision is.
    And I would like to turn to my colleague from Texas, Mr. 
Olson, for 5 minutes.
    Mr. Olson. I thank the Chair. And welcome to our experts.
    Yucca Mountain is a 20-year story of raw politics, State 
versus State, Republican versus Republican, Democrat versus 
Democrat. I support Yucca Mountain for one simple reason: Yucca 
Mountain ensures that America is more secure from attacks by 
terrorists with radioactive weapons.
    It doesn't have to be a big thermonuclear explosion, a 
mushroom cloud. It can be a simple dirty bomb, a conventional 
bomb that scatters radioactive material across a city like 
Houston, Texas.
    As you all mentioned, we have 130 sites across America that 
high-level radioactive waste is stored. That sounds like a lot, 
but I have been told if you had that waste on a football field, 
it would go from goal line to goal line, 100 yards, sideline to 
sideline, 53 and a third yards, and 10 feet high, 3 and one-
third yards. Look around. That is probably enough waste to fill 
two rooms this size. This is not some big pile. It is bad 
stuff, but not some massive pile of radioactive waste.
    I worry, as I mentioned, about terrorists picking out the 
weakest site of these 131 sites and grabbing that material and 
hitting my home. And that is why I support Yucca Mountain. Now, 
that is my wish. Let's talk about what is happening right now.
    My first question is for you, Mr. McManus. For every piece 
of red tape that holds employers back, there is also the 
problem of lack of certainty. Can you talk about why it is 
important for us to get a path to permanent storage of spent 
fuel? Why do this now?
    Mr. McManus. Why do it now? As you opened up, Congressman, 
it has been 20 years' worth of a political football. If not 
now, the question is when. Uncertainty is one of the biggest 
challenges of any construction industry, builder, owner, end 
user, for performance of work.
    I also agree with your comments about the safety and the 
security of the Nation. So the red tape that we see on regular 
construction jobs, from the pipelines to this, is always a 
hampering of the industry. I congratulate the administration, 
the current administration, to try to cut through some of the 
red tape. Quite frankly, if not now on Yucca Mountain, when?
    Mr. Olson. Thank you, sir.
    My next question is for you, Mr. Nesbit. Your group 
supports the development of an interim storage option. As you 
know, as the chairman knows, there are some Texans and others 
who want that option. Under current law, can we give a contract 
for a non-Federal entity to serve as an interim storage 
facility? Does this discussion draft give you that authority?
    Mr. Nesbit. Sir, it is my understanding that it does. And 
the U.S. Nuclear Infrastructure Council supports the use of 
private entities to the maximum extent possible in the 
management of used fuel and high-level waste.
    Mr. Olson. This bill, Title I says we can't go forward with 
that until we have a final decision on Yucca Mountain license. 
Is that correct?
    Mr. Nesbit. Yes, sir.
    Mr. Olson. Great. Again, I support Yucca Mountain. As I 
mentioned, I was in the Navy for 9 years. And they teach you if 
you are fighting defensively and protecting a sacred part of 
your infrastructure, you want your forces concentrated and you 
want to control the battlefield. So that means Yucca Mountain 
is the best place to do that. We have our forces there. Instead 
of 130 places all across the country, right there, one big 
repository. And the terrain, we control all the terrain. Again, 
as I mentioned, I am so concerned about this material getting 
in bad people's hands and having some sort of radiological 
attack on our towns.
    One more final question about interim permits. While 
waiting for Yucca Mountain to be actually--the license approved 
first, how will those delays impact these interim storage 
facilities? Good, bad? How long will they wait for their 
permits? Any idea?
    Mr. Nesbit?
    Mr. Nesbit. It is hard to tell, because for the past 6 
years, the country has been doing essentially nothing in the 
realm of used fuel management. We believe at U.S. Nuclear 
Infrastructure Council that both a repository at Yucca Mountain 
and consolidated storage are desirable elements of an 
integrated program, and we think that they will be additive. We 
think that one will help the other if both are pursued with 
vigor.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
opportunity and thank our panel for joining us today.
    Section 203(h) of the discussion draft makes the EPA the 
sole permitting authority for air quality permits exclusively 
within the defined Yucca Mountain site withdrawal area, and 
only for the purpose or support of activities to site, 
construct, or to operate a repository.
    So, Mr. Sproat, will you describe what sort of activities 
that EPA would permit within the designated site?
    Mr. Sproat. Within any major construction site, whether it 
is the repository or any other major construction site, there 
are a number of air permits that are required, whether you are 
running a--and they are called source permits. So, if you are 
running a boiler for steam, whether you are emitting exhaust 
from a diesel generator, all of those require air permits, 
source air permits. And in most cases, those are provided by 
the State.
    So in this case, the State of Nevada would have the ability 
to block air permits needed for both the construction and the 
operation of the repository.
    Mr. Johnson. Well, but I asked you about the EPA. So what 
would the EPA do? If the State holds that authority, what does 
the EPA do?
    Mr. Sproat. I believe the reason that wording is in there 
is because under current regulations today, those air emission 
permits are regulated at the State level. And what this 
legislation is saying is, for the repository site itself, that 
is to be regulated by the Federal Government.
    Mr. Johnson. So is the EPA still obligated to conduct the 
same review of all permitting documentation as Nevada would be?
    Mr. Sproat. Yes. And those emissions would have to meet all 
of the same guidelines that would be normally required.
    Mr. Johnson. OK. Section 202 of the discussion draft names 
the Yucca Mountain project beneficial to interstate commerce 
and in the public interest. This provision was previously 
proposed by the Department of Energy due to the State of Nevada 
objecting to providing access to water at the Yucca Mountain 
site.
    So, Mr. Sproat, again, will you please provide some context 
regarding how much water is necessary and what sort of 
activities the water is used to support.
    Mr. Sproat. It has been a long time, Congressman, and I 
certainly can't remember the exact quantities of water. But in 
the environmental impact statement that the Department 
submitted for the repository, those quantities are in that 
analysis. But as I mentioned before in I think my opening 
statement, the reason this was in here was because--and where I 
became personally aware of some of the difficulties associated 
with the State permitting was that, as part of putting the 
license application together, we needed to do an exploratory 
drill of the subsurface to be able to do the seismic analysis 
for the buildings. And we needed water, a very, very small 
quantity of water to cool the drill bits, and the State water 
engineer was basically directed from the Governor's office not 
to give it to us.
    Mr. Johnson. OK. So how did DOE manage the operations 
previously when Nevada turned off the spigot?
    Mr. Sproat. We basically trucked water in.
    Mr. Johnson. You trucked it in, OK.
    Does the State of Nevada issue water permits for the Nevada 
National Security Site or other Federal facilities, such as 
military bases located in the State, that you know of?
    Mr. Sproat. I have been told they do not, but I don't know 
that personally myself.
    Mr. Johnson. OK. Based on your experience at the 
Department, would enactment of this language that we are 
talking about today help satisfy the NRC's requirement that the 
Department has access to the required level of water for 
repository operation?
    Mr. Sproat. I believe it would.
    Mr. Johnson. OK.
    All right, Mr. Chairman, I yield back 38 whole seconds.
    Mr. Shimkus. The chairman thanks you.
    And the Chair now recognizes the gentleman from North 
Carolina, Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman.
    And thank you to the panel for taking your time today for 
this really important discussion.
    Mr. Nesbit, why shouldn't the country develop a separate 
defense repository or deep borehole disposal?
    Mr. Nesbit. Thank you for the question. It is one that is 
raised by the fact that in 2015, the previous administration 
made a determination that, in fact, the country should do that. 
I look at these things rather simplistically because I am an 
engineer. We have a fair amount of material that needs to be 
disposed of, used nuclear fuel, but also high-level waste 
residing at defense sites around the country, including the 
Savannah River site in the State of South Carolina.
    And there are many different kinds of waste, but the 
challenge so far in this program has been to find a site to 
dispose of it in a geologic facility. If you were to develop 
separate repositories for different kinds of materials, then 
that would just compound the difficulty of finding multiple 
sites. Deep borehole disposal has been hypothesized. It has not 
been carried out, so there is no regulatory structure to cover 
it. So it would require an extensive program to qualify that 
method as well, so that would be additional cost. And 
ultimately, I think what makes sense is if you are going to dig 
a big hole in the ground and put waste there, you might as well 
make it big enough for everything.
    Mr. Hudson. It makes sense to me too.
    Mr. Sproat, kind of tie this all together for me. What 
should DOE be doing to restart this Yucca Mountain project?
    Mr. Sproat. At this stage of the game, it is extremely 
important to be able to, number one, reassemble a small group 
of experts, both from the national labs as well as the 
designers of the repository as well as the key Department staff 
as well as some outside legal counsel that is very familiar 
with NRC regulatory law, and to bring that team together and 
begin the adjudication of the contentions in front of the NRC.
    And that would require, basically, adequate funding to the 
Department to do that, to bring those people back together. In 
a lot of cases, those people either moved on or retired. But I 
can tell you--I know a number of them personally--they would be 
more than happy to come back on a part-time basis and defend 
the work they have done and they spent the majority of their 
career doing. So that is really what needs to happen next.
    Mr. Hudson. I appreciate that.
    For the panel, in addition to DOE, are there steps that 
should be taken by the EPA and the NRC? What would be the next 
steps to get us jump-started? I would open it up to anybody 
that wants to jump in.
    Mr. O'Donnell. I will take a stab at your previous question 
first, and that is, there is an additional benefit to a 
combined repository, because it reduces the burden paid by the 
ratepayers. So the ratepayers in your district and across this 
country have already paid $40 billion, and having DOE and a 
combined facility actually helps.
    With regard to the next step, NARUC believes that this 
particular discussion draft is the most important next step 
before us. It is a very good first step and it moves the ball 
forward. So, from our perspective, we believe this is the right 
way to head.
    Mr. O'Donnell. I appreciate that.
    Dr. Lyman. Can I throw in one thing?
    Mr. Hudson. I am about to run out of time. I am sorry. I 
want to get one more question in to Mr. O'Donnell.
    Dealing with section 501, adequacy of Nuclear Waste Fund, 
current law requires the Secretary of Energy to conduct a fee 
adequacy analysis to evaluate the estimated program cost 
required by the Nuclear Waste Policy Act. NARUC successfully 
challenged DOE's most recent analysis which resulted in the DC 
Circuit Court of Appeals prohibiting further collection of the 
annual fee. Do you believe that DOE must conduct a new fee 
adequacy assessment prior to resumption of the fee collection?
    Mr. O'Donnell. We do. And we believe that that analysis on 
the corpus of the money that is already there ought to 
determine and instruct whether a new fee is necessary or the 
interest from that corpus can pay for the activities going 
forward. And additionally, if you do need a new fee, at what 
level it should be set. And we don't understand how you could 
ever set a new fee or start a new fee without analyzing it.
    Mr. Hudson. I appreciate that.
    Mr. Nesbit, back to you. Should the statutory requirement 
for DOE to conduct a life-cycle cost analysis remain?
    Mr. Nesbit. Yes, absolutely. Any project should have an up-
to-date and maintain total life-cycle cost analysis.
    Mr. Hudson. Mr. Sproat, you conducted the life-cycle cost 
analysis for Yucca Mountain project. Will you describe the role 
of that analysis and the Department's assessment of the 
adequacy of the Nuclear Waste Fund?
    Mr. Sproat. It is a fundamental input to that fee adequacy 
assessment. And the one thing I would like to point out is, so 
when we did that, the last one that I am aware of in 2008 had a 
number of assumptions regarding the number of plants that would 
life extend and when the repository construction would start 
that are no longer valid, so it needs to be redone.
    Mr. Hudson. OK. Mr. Chairman, thank you. My time has 
expired.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Texas, Mr. 
Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman.
    I would like to say the ultimate solution to a lot of these 
issues is to continue basic research investment in newer 
technology, including small nuclear reactors, reactors that 
haven't even been thought of, also in terms of reprocessing. I 
think nuclear energy is an essential component of a clean 
energy future, particularly because, as Mr. McManus pointed 
out, it provides base load power on a low emissions basis.
    Prior to asking my questions regarding funding for our 
Nation's nuclear waste management disposal program, I would 
like to make a point. And I think this follows onto something 
Mr. Nesbit said earlier, and that is that every day the Federal 
Government does not act increases the long-term cost on the 
American taxpayer for nuclear waste disposal. Last year, the 
American taxpayers paid out over $2 million every single day 
because the Federal Government is allowing spent nuclear fuel 
to sit scattered around the country.
    Now I would like to discuss a couple reforms to move 
forward and fix this problem, and they follow Mr. Hudson's 
questions from a minute ago. The first one, Mr. Sproat, your 
testimony notes that DOE does not have access to funding from 
the Nuclear Waste Fund, as envisioned when the fund was created 
by the Nuclear Waste Policy Act.
    Title V of the discussion draft, the current discussion 
draft, seeks to address this challenge by allowing the fees to 
be used as offsetting receipts, which would permit Congress to 
more easily prioritize nuclear waste management activities in a 
budget-constrained environment, while preserving the portions 
of the previously collected fees for DOE activities over the 
life cycle of the Yucca Mountain project.
    So three questions real quickly. Are the provisions, these 
provisions an important improvement from the existing funding 
mechanism?
    Mr. Sproat. Yes.
    Mr. Flores. OK. And what further recommendations would you 
make to ensure necessary and proper financial resources are 
available to the Department?
    Mr. Sproat. Whatever the legislation that is required to be 
able to give the Department access to the corpus of the fund as 
well as the interest being generated on the fund in a manner 
that meets the construction, the optimum construction 
expenditure profile, needs to be figured out how to do that.
    Mr. Flores. OK.
    Mr. O'Donnell, let me ask you this: In your view, would the 
current discussion draft help enable a program to properly fund 
nuclear waste management activities?
    Mr. O'Donnell. It certainly would, Congressman. By 
determining that the Secretary shall have available on dates 
certain certain portions of the fund, that is tremendously 
important. It gives continuity and it tells you that the money 
is going to be there. The milestones are defined. And NARUC 
wants to look at the percentages on those milestones, but we do 
believe that, without further appropriations, the language is 
an improvement in this draft discussion, and we think that you 
are heading in the right direction here.
    Mr. Flores. Thank you.
    Mr. Nesbit, same question. In your view, would the current 
discussion draft help enable a program to properly fund nuclear 
waste management activities?
    Mr. Nesbit. I believe it would, sir. I do not couch myself 
as an expert on the intricacies of congressional funding, but I 
think that this would be an improvement
    Mr. Flores. There are several Members of Congress that 
don't either. Not me, I am a CPA, I got it.
    The discussion draft removes activities to support a 
centralized interim storage facility from unauthorized use of 
the Nuclear Waste Fund. How would opening up the Nuclear Waste 
Fund to pay the cost associated with an interim storage 
facility potentially impact the overall adequacy of the fund?
    Mr. Sproat. What I can say is, based on the fee adequacy 
study that we did back in 2008, with the assumptions that went 
into that, in terms of the revenue stream and the interest 
rates that the fund would generate----
    Mr. Flores. Yes, sir.
    Mr. Sproat [continuing]. We had enough--the fund at that 
point in time under those assumptions was adequate to design 
and build and operate the repository and get it to closure. 
Nothing else.
    Mr. Flores. OK. Thank you to the panel for testifying 
today, and I yield back the balance of my time.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the former vice chair of the 
subcommittee, Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    And thanks to each of you for being here today on this very 
important topic.
    And so, Mr. Sproat, how close did I come on pronunciation 
there?
    Mr. Sproat. Perfect.
    Mr. Harper. All right. Look, I am sure you have visited the 
Yucca Mountain site on a number of occasions and viewed that. 
Is that safe to assume?
    Mr. Sproat. Yes, that is correct.
    Mr. Harper. Will you please describe the ownership and 
management of lands identified in the withdrawal description 
around the Yucca Mountain site.
    Mr. Sproat. Right now, the Yucca Mountain site is part of 
the national security area that was part of the Nevada test 
site. And so the Department of Energy has responsibility for 
managing that site.
    The issue that I mentioned in my opening testimony that was 
one of the issues that the Nuclear Regulatory Commission staff 
identified is that as under the regulations for the repository, 
the Secretary of Energy needs to show that that land cannot be 
used any time in the future for other public use, that it will 
be isolated from public use going forward, which means that 
land needs to be permanently withdrawn from public use by the 
Congress, and that hasn't been done yet.
    Mr. Harper. So just so that I am clear then, the land 
withdrawal didn't just transfer land from a few Federal 
agencies to the Department of Energy. Is that correct?
    Mr. Sproat. I can't speak to the legal aspects of land 
withdrawal and how that works, but what I can say is that what 
I do remember is that it requires an act of Congress to 
permanently withdraw that land from future public use.
    Mr. Harper. Got it. The discussion draft would assure that 
the land withdrawal sections are effective if the Nuclear 
Regulatory Commission approves the issuance of the construction 
authorization for the repository. Do you believe that this will 
fulfill the necessary NRC requirements to demonstrate DOE's 
permanent ownership of the Yucca Mountain site?
    Mr. Sproat. Yes.
    Mr. Harper. All right. With that, Mr. Chairman, I will 
yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from Georgia, 
Congressman Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    And thank all of you for being here. It is certainly an 
important subject, certainly something that all of us need to 
be concerned with.
    I know we are concerned in the State of Georgia. You see, 
our ratepayers have paid over a billion dollars, over a billion 
dollars into the Nuclear Waste Fund to dispose of commercial 
spent nuclear fuel, yet the Department of Energy hasn't 
fulfilled its legal obligations and hasn't been disposing of my 
State's spent fuel. So, you know, I am going home and my 
constituents are asking me, where did our billion dollars go? 
What are we getting out of it? And quite honestly, I don't know 
what to tell them, except we are not getting anything out of 
it. And they are tired of it, just like I am. I mean, you know, 
we want to do our part, but when we are told we are going to 
get something and we don't get it, then obviously we are upset 
about it.
    Upstream from my district--I represent the entire coast of 
Georgia. I start in Savannah and go all the way down to the 
Florida State line. Upstream from my district is the Savannah 
River plant, and that is where, of course, we have the storage 
of nuclear waste that is created as a byproduct of our Nation's 
national defense program. And under the provisions of the 
Nuclear Waste Policy Act, the American taxpayers have 
specifically paid for a portion of the Yucca Mountain project 
to dispose of this Department of Energy waste.
    I want to ask you, Mr. O'Donnell, if I could, when 
President Obama reversed this, and whenever the policy to 
dispose of defense waste in a single repository with commercial 
spent fuel, as we have talked about during this time, that kind 
of put at risk almost $3.7 billion in investment that we had. 
Would you agree with that?
    Mr. O'Donnell. I would agree with that. And I would say 
that that investment from the Department of Energy helps 
mitigate the exposure and the burden needed to be carried by 
the electricity consumers in this country. And so it is a 
positive contribution to the infrastructure, and putting that 
at risk increases, in my opinion, the liability and exposure of 
the electricity ratepayers in the country going forward. And 
NARUC is very concerned about that.
    Mr. Carter. And I am assuming, and I think correctly so, 
that all of you have read the proposed draft and that you are 
familiar with section 205. So section 205, which tells us that 
we will be able to do that, or at least the Department of 
Energy will not have to separate the two.
    What kind of ramifications, Mr. O'Donnell, do you think 
that will have?
    Mr. O'Donnell. One thing it will do is it will make clear 
that it is the policy of the United States, through the 
Congress, that combining these facilities going forward is a 
possibility and that it is restated in the law, which is to be 
disregarded at all of our peril.
    Mr. Carter. And the impact that that would have on 
ratepayers. Again, I allude to what I led off with, and that is 
that I am having to answer to these people. They want to know 
where their billion dollars went, billion with a B.
    Mr. O'Donnell. I agree. NARUC agrees strongly. We know the 
Georgia Legislature recently passed resolutions in this regard, 
and that is very important. And NARUC is in strong agreement 
with you, Congressman, that we need to move forward and we need 
to realize the benefits that the ratepayers have already paid 
for, in my State, in your State, in all of our States.
    Mr. Carter. Mr. Nesbit, real quickly, he just mentioned a 
resolution that the Georgia State Senate passed just last month 
dealing with this. Your group that you represent, how do you 
feel about the 205 provision?
    Mr. Nesbit. We are very much in favor of it. I think it is 
a win-win for both the customers of nuclear-generated 
electricity, the burden that they bear, and the taxpayers who 
bear the burden of funding the disposal of so-called defense 
waste. Very much in favor.
    Mr. Carter. All right. I want to shift gears real quick 
with the minute that I have got left.
    Mr. McManus, I know that you have somewhat of a different 
approach, because you look at the economic and the jobs that 
come out of this and the economic impact and the economic well-
being of your members. And, as you know I am sure, the industry 
is doing a lot of work down in Georgia. And I wanted to just 
get your input on the thousands of jobs that these construction 
sites, that they generate. And what kind of jobs are they? Are 
they highly skilled, highly paid jobs?
    Mr. McManus. They are highly skilled jobs. The United 
Association, we spend $250 million a year every year. So in 4 
years, that is a billion dollars in training, all privately 
funded from our own union, to have the changing technology of 
going forward. That is just not only apprenticeship training; 
that is continuing journeyman training of the new technologies 
coming. So we are highly skilled. These are good middle class, 
middle-of-the-road-paying jobs that people can sustain a 
family, sustain a lifestyle in the good State of Georgia. And 
Georgia is a fantastic State for us concerning nuclear power.
    Mr. Carter. Absolutely. And thank you.
    And I yield, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thank you to the panel. I wish I could have heard more. 
Due to a markup, I couldn't be here for the whole time. But 
having a nuclear power plant in my district that sits on the 
shores of Lake Erie storing spent fuel now in casks, this is of 
great interest to me for many reasons.
    Mr. Nesbit, section 503 of the discussion draft would make 
certain amounts of money available to DOE for activities 
associated with Yucca Mountain construction, operation, 
decommissioning, and postdecommissioning activities.
    Does the NIC support this model as a way to assure DOE has 
funding available for the 120-year capital infrastructure?
    Mr. Nesbit. The U.S. Nuclear Infrastructure Council hasn't 
conducted a thorough evaluation of this particular aspect of 
the legislation, but it appears to be a positive step forward 
in terms of assuring that the money will be available to carry 
out the various phases of this very long project.
    Mr. Walberg. That being the case, would you describe how 
current operating nuclear power reactors budget to assure that 
funding is available over the course of a reactor and to pay 
for certain decommissioning activities?
    Mr. Nesbit. Yes. We have requirements to set aside moneys 
in what we call the decommissioning fund, a certain amount each 
year to make sure that we are funded to a level such that when 
we do ultimately shut the plant down, we will be able to carry 
out the decommissioning activities, dispose of the radioactive 
materials, et cetera.
    The one part of the equation that we can't handle when it 
comes to decommissioning is the disposal of the used fuel, and 
that is what we look to the Federal Government for.
    Mr. Walberg. OK. Mr. O'Donnell, section 501 of the 
discussion draft would limit the amount collected by the 
Federal Government to 90 percent of the appropriated level for 
nuclear waste management activities. Is this modified 
collection method an improvement from the existing statute? And 
secondarily, does NARUC have additional recommendations to 
modify the fee collection?
    Mr. O'Donnell. Two things. We do believe it is an 
improvement because it more closely matches the collection with 
the appropriations, as Mr. Sproat testified to earlier, and we 
think that is a good direction to head.
    In terms of additional fee collection conditions, we would 
simply say--and I recall this in my testimony. You will see 
where I say that we think an evaluation of the ability of the 
interest on the corpus that has already been collected to fund 
the activities is essential before any new fee or any fee level 
is set. We have to understand how that works before we can set 
the fee level. So we believe strongly in that, and I hope that 
helps your understanding.
    Mr. Walberg. Thank you.
    Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    And we want to thank our panel.
    Seeing no other Members present--for what purpose does the 
gentleman----
    Mr. Tonko. Mr. Chair, if I could please respectfully ask 
for unanimous consent for a letter dated April 26, 2017, from 
NRDC be submitted for the record.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And I have a whole list here. I was going to 
thank our panel before I adjourn.
    I also would like to ask unanimous consent for the 
following letters: The letter to Representative Titus from the 
American Gaming Association; a letter from Governor Brian 
Sandoval; a letter from Senator Dean Heller; a letter from 
Board of County Commissioners in Nye County, Nevada; a letter 
from the Nevada section of the American Nuclear Society; 
editorial by the Albuquerque Journal Editorial Board; editorial 
by the Chicago Tribune Editorial Board; article from the Los 
Angeles Times, March 2017.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. Pursuant to the committee rules, I remind 
Members that they have 10 business days to submit additional 
questions for the record. If you get those, I would ask you to 
submit those back to the committee within 10 business days. 
Without objection.
    Again, we want to thank you all for, obviously, spending a 
lot of time with us this morning.
    And the hearing is adjourned.
    [Whereupon, at 12:43 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, thank you for holding today's hearing on 
draft legislation to amend the Nuclear Waste Policy Act (NWPA).
    Unfortunately, we are having yet another legislative 
hearing without any Executive Branch witnesses--appointee or 
career--to provide perspective on how this legislation would be 
implemented. This is now the sixth legislative hearing this 
year in our committee, and not one has had agency witnesses to 
discuss the legislation under consideration. The glacial pace 
at which President Trump is nominating individuals for agency 
positions is historically slow and it's impeding our ability to 
get the detailed perspective we need from the agencies that 
implement the legislation in our jurisdiction.
    It has been 30 years since Congress significantly revised 
the NWPA. Unfortunately, during that period little has been 
accomplished to address the disposition of the spent nuclear 
fuel that is a byproduct of electricity generation at nuclear 
power plants. At the same time, ratepayers have seen their 
contributions to the nuclear waste fund used more for debt 
reduction than storage or disposal, while taxpayers have had to 
foot the bill for damages stemming from the Department of 
Energy's (DOE) failure to take title to waste.
    I believe we must find a long-term solution to the issue of 
nuclear waste. With more and more nuclear power reactors 
scheduled to shut down in the coming years, surrounding 
communities are realizing that the nuclear waste currently 
sitting in dry casks and spent fuel pools at these sites will 
be stored there indefinitely when the plant closes, absent a 
workable national solution.
    In New Jersey, the Oyster Creek Nuclear Generating Station 
is scheduled to shut down in 2019. It will soon stop providing 
power, but will continue to provide a home to spent nuclear 
fuel long into the future unless we come together to fix this 
program. I know that many of my colleagues here today face 
similar circumstances in their communities.
    Without a functioning Federal nuclear waste program, we are 
failing both the ratepayers who have paid into the waste fund 
over several decades, and the taxpayers who are paying damages 
through the Judgment Fund administered by the Justice 
Department.
    These factors, coupled with the increase in plant 
retirements, underscore the need for interim storage solutions 
to bridge the gap until a permanent repository is licensed and 
constructed, wherever that may be. I commend Chairman Shimkus 
for producing the draft before us yet I worry that it does 
little to move interim storage forward. By explicitly stating 
that interim storage cannot be approved until the Nuclear 
Regulatory Commission makes a final decision on a permanent 
repository, I fear that we are not providing certainty for 
interim storage or permanent disposal. In fact, under the bill 
as currently drafted, it is difficult for me to see how any 
private entity could obtain financing to construct interim 
storage.
    I also have a specific concern with section 202 of the 
discussion draft, which undercuts the basis used by the State 
of Nevada to deny DOE's water rights application for the Yucca 
Mountain site. For many years, the Federal Government has given 
deference to State water rights laws, but this provision seems 
to strong-arm Nevada by deeming the water use at the site to be 
beneficial and in the public interest. I don't see any need for 
Congress to insert itself at this time into what is surely a 
legal matter.
    My concerns aside, I do appreciate having a proposal from 
the chairman. Most of us here today can agree that we need a 
solution to address the storage and disposal of our Nation's 
spent nuclear fuel. I remain committed to working with my 
colleagues and stakeholders to develop a workable solution for 
our country's nuclear waste program and look forward to hearing 
from our witnesses, particularly my colleagues.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
